<html>
<title> - THE STATE OF POSITIVE TRAIN CONTROL IMPLEMENTATION IN THE UNITED STATES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
THE STATE OF POSITIVE TRAIN CONTROL IMPLEMENTATION IN THE UNITED STATES

=======================================================================

                                (114-23)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                       RAILROADS, PIPELINES, AND
                          HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 24, 2015

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            
             
             
             


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
        
                               ___________
                               
                     U.S. GOVERNMENT PUBLISHING OFFICE
 95-230 PDF                   WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001      
     
     
     


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
TOM RICE, South Carolina             RICHARD M. NOLAN, Minnesota
MARK MEADOWS, North Carolina         ANN KIRKPATRICK, Arizona
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
MARK SANFORD, South Carolina         ELIZABETH H. ESTY, Connecticut
ROB WOODALL, Georgia                 LOIS FRANKEL, Florida
TODD ROKITA, Indiana                 CHERI BUSTOS, Illinois
JOHN KATKO, New York                 JARED HUFFMAN, California
BRIAN BABIN, Texas                   JULIA BROWNLEY, California
CRESENT HARDY, Nevada
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York

                                  (ii)
                                  

  


     Subcommittee on Railroads, Pipelines, and Hazardous Materials

                   JEFF DENHAM, California, Chairman

JOHN J. DUNCAN, Jr., Tennessee       MICHAEL E. CAPUANO, Massachusetts
JOHN L. MICA, Florida                CORRINE BROWN, Florida
SAM GRAVES, Missouri                 DANIEL LIPINSKI, Illinois
CANDICE S. MILLER, Michigan          JERROLD NADLER, New York
LOU BARLETTA, Pennsylvania           ELIJAH E. CUMMINGS, Maryland
BLAKE FARENTHOLD, Texas              RICK LARSEN, Washington
RICHARD L. HANNA, New York           STEVE COHEN, Tennessee
DANIEL WEBSTER, Florida              ALBIO SIRES, New Jersey
TOM RICE, South Carolina             RICHARD M. NOLAN, Minnesota
SCOTT PERRY, Pennsylvania            ELIZABETH H. ESTY, Connecticut
TODD ROKITA, Indiana                 GRACE F. NAPOLITANO, California
JOHN KATKO, New York                 JANICE HAHN, California
BRIAN BABIN, Texas                   PETER A. DeFAZIO, Oregon (Ex 
CRESENT HARDY, Nevada                Officio)
MIMI WALTERS, California
LEE M. ZELDIN, New York
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)
                                 
                                 
                                 
                                 

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               WITNESSES

Sarah Feinberg, Acting Administrator, Federal Railroad 
  Administration:

    Testimony....................................................     5
    Prepared statement...........................................    45
Charles Mathias, Associate Chief, Wireless Telecommunications 
  Bureau, U.S. Federal Communications Commission:

    Testimony....................................................     5
    Prepared statement...........................................    51
Frank Lonegro, Vice President of Service Design, CSX 
  Transportation, Inc.:

    Testimony....................................................     5
    Prepared statement, including white paper from Association of 
      American Railroads entitled ``Positive Train Control 
      Implementation Challenges,'' June 22, 2015.................    56
Donald Orseno, Executive Director and Chief Executive Officer, 
  Metra Commuter Railroad:

    Testimony....................................................     5
    Prepared statement...........................................    95
Russell Kerwin, Deputy Project Manager of Positive Train Control, 
  Southern California Regional Rail Authority (Metrolink):

    Testimony....................................................     5
    Prepared statement...........................................   100

                       SUBMISSIONS FOR THE RECORD

Report, ``San Francisco/Silicon Valley Corridor Investment 
  Strategy for High-Speed Rail,'' June 2009, by San Francisco 
  County Transportation Authority, et al., submitted by Hon. Jeff 
  Denham, a Representative in Congress from the State of 
  California.....................................................   108

                        ADDITIONS TO THE RECORD

Letter of June 23, 2015, from Eric Garcetti, mayor of the city of 
  Los Angeles, to Chairman Jeff Denham and Ranking Member Michael 
  E. Capuano, Subcommittee on Railroads, Pipelines, and Hazardous 
  Materials......................................................   136
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  
  



THE STATE OF POSITIVE TRAIN CONTROL IMPLEMENTATION IN THE UNITED STATES

                              ----------                              


                        WEDNESDAY, JUNE 24, 2015

                  House of Representatives,
Subcommittee on Railroads, Pipelines, and Hazardous 
                                         Materials,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10 a.m., in room 
2167, Rayburn House Office Building, Hon. Jeff Denham (Chairman 
of the subcommittee) presiding.
    Mr. Denham. The subcommittee will come to order.
    Good morning. Welcome to the Subcommittee on Railroads, 
Pipelines, and Hazardous Materials. Our hearing today will 
focus on the implementation of PTC, Positive Train Control, in 
the United States, one of the most complex and costly safety 
mandates ever taken by the railroad industry.
    Positive train control is a radio or GPS-based [Global 
Positioning System-based] system designed to automatically 
control trains to follow speed limits and avoid train-to-train 
collisions. Following the deadly commuter train crash in 
southern California, Congress mandated the installation of PTC 
on lines where certain hazardous materials are carried and any 
line on which passenger or commuter rail services operate.
    The recent tragic Amtrak crash in Philadelphia has reminded 
us that, while these accidents are rare, they can happen, and 
PTC will make our rail network safer. This mandate was included 
in the Rail Safety Improvement Act of 2008, and Congress set an 
implementation deadline of December 31 of this year.
    From the beginning, the PTC mandate was going to be a 
daunting undertaking to consider. What completely implemented 
PTC will require is 38,000 wayside interfaces, 18,000 
locomotives to be upgraded, and 12,000 signals will need to be 
replaced.
    While similar systems exist in Europe and on some portions 
of Amtrak's Northeast Corridor, PTC has never been implemented 
on such a scale and has never required such a high level of 
interoperability. Since the 2008 mandate was enacted, freight, 
passenger, and commuter railroads have spent the last 7 years 
working to implement PTC. According to the Association of 
American Railroads, freight rail has spent $5.7 billion to date 
on PTC and is expected to spend a total of $9 billion to fully 
implement it.
    The American Public Transportation Association has 
estimated that commuter and passenger railroads will have to 
spend nearly $3.5 billion on PTC. In addition to the sheer cost 
and complexities of the system, there have been many unexpected 
delays. The process of approving PTC poles along railroad 
right-of-way was delayed significantly when the Federal 
Communications Commission mandated that each pole go through an 
extensive review process.
    The FCC eventually created a more streamlined process for 
those approvals, and we will hear from them today about how it 
is working. Commuter and passenger railroads have also 
struggled to buy the necessary radio spectrum for PTC, 
especially in our dense metropolitan areas.
    Today we will discuss how long it will take to get PTC 
implemented across the country and what it will take to meet 
this current deadline. In closing, I look forward to hearing 
from our witnesses regarding these issues.
    I would now like to recognize Ranking Member Michael 
Capuano from Massachusetts for any opening statement he may 
have.
    Mr. Capuano. Thank you, Mr. Chairman.
    I want to welcome the panel. I am looking forward to your 
testimony and the discussion we have. I think the chairman has 
said pretty much everything there is to say about PTC from our 
end of it.
    Honestly, this is long overdue, in my estimation. And, 
honestly, I would like to find out--we all know where we are 
today. Tell me how we get to where we want to implement as 
quickly as we can because that is what America wants, that is 
what I want. And if you think you need Federal assistance, 
please say so. Be clear.
    I say that because we have our own differences of opinion 
in the House and the Senate as to whether we should be putting 
funds up or not. And if you think we should, you should say so. 
I would like to hear that.
    With that, I yield back. And I look forward to the 
testimony.
    Mr. Denham. I now call on the full committee chairman, Mr. 
Shuster.
    Mr. Shuster. Thank you, Chairman Denham, for holding this 
hearing today. I think it is important to start off by saying 
that the number-one top priority of this committee and the 
Department of Transportation is safety.
    In general, rail safety trends have gone in the right 
direction over the past years. However, the terrible Amtrak 
incident in Philadelphia last month showed us that we should 
always remain focused on our efforts to improve rail safety.
    As Chairman Denham said--and I believe it is worth 
repeating--Positive Train Control is one of the most ambitious, 
complex, and costly safety enhancements the railroad industry 
has ever undertaken.
    I was the ranking member of the subcommittee in 2008 when 
Congress enacted the PTC mandate. We knew the mandate would be 
challenging, but we hoped that railroads would be able to meet 
that deadline 7 years into the future. Unfortunately, we know 
today that that will not be the case.
    With a few exceptions, most railroads, including the 
largest Class I freight railroads, will not meet December's 
deadline. This has happened for a few reasons.
    Technology has been more complicated especially to ensure 
interoperability between the railroads. Spectrum has been 
harder to acquire particularly for commuter railroads that 
serve in densely populated metro areas. And, finally, the 
Federal Communications Commission's approval process for new 
telecommunication poles was not set up to handle the tens of 
thousands of poles needed to deploy PTC.
    So I am looking forward to hearing from you today, the 
witnesses, where the PTC implementation stands, and your 
testimony will help us to consider how we move forward to deal 
with the mandate in an appropriate fashion.
    With that, I yield back.
    Mr. Denham. And I will call on Mr. DeFazio for any opening 
statement he may have.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Are you sure your microphone is working? I couldn't hear 
you. Jeff doesn't need a microphone, the chairman.
    Thank you, Mr. Chairman. Thanks for holding the hearing.
    We are going to focus on the extension of the deadline 
today. It is clear that the Class I's aren't going to be able 
to meet the deadline. Some passenger rail is not going to be 
able to meet the deadline.
    But this was not a knee-jerk reaction to Chatsworth, and 
this has been something that has been a very, very long time in 
the making.
    It was 45 years since NTSB [National Transportation Safety 
Board] first recommended the idea of Positive Train Control. 
And they have had it on their most wanted list for many years. 
It was temporarily removed after the passage of the legislation 
in 2008, but it was put back on when it was clear that the 
deadlines weren't going to be met.
    Just to revisit why we did this, Chatsworth actually took 
place right before the House and Senate had acted. And it was a 
compilation of accidents over the years, including, in 
particular, one in 2005 that was a release of chlorine gas. 
Five thousand people were evacuated. Eight people died. Five 
hundred fifty-four were injured.
    And the NTSB at the time said they had never seen anything 
like it, this was caused by human error--improper alignment of 
a switch--and, had PTC been installed, it wouldn't have 
happened. And then they went back over a litany; this again is, 
at the time of passage: 145 accidents, 296 fatalities, and 
6,700 injuries over the past 45 years since their first 
recommendation would have been prevented with PTC. So we passed 
it.
    Chatsworth took place, actually, right before House 
passage, which led the Senate to change its position. They 
started out, I believe, with 2018 as the deadline, and they 
were pushing, at the behest of the two California senators, 
2014. We compromised on 2015 as something that could be 
achievable. Unfortunately, we aren't going to meet that 
deadline in many cases.
    Congress was helping some of the passenger rail folks with 
grants. The President has asked for $1 billion. We got one $50 
million grant. But, since 2010, nothing has been allocated by 
Congress.
    Now, for freight, it is a heavy expense, but at least it is 
a business expense. For nonprofit passenger rail, you know, it 
is an expense which is hard to pass on to the customers, but 
that is pretty much what they have to do, or the local 
operating jurisdiction. So grants could be helpful, I believe, 
and we hopefully will hear more about that today.
    And yet, our colleagues on the Appropriations Committee--it 
doesn't quite take the same view of these issues as we do--we 
are a little more enlightened on this committee--actually cut 
Amtrak's capital grants by $290 million the day after the 
accident.
    And among other things that those grants fund is Positive 
Train Control in addition to other critical infrastructure, 
which is likely to cause other accidents, derailments, bridge 
collapse, tunnel collapse. The system is decrepit, needs an 
incredible amount of investment. Very, very shortsighted.
    So I have observed that we got a man to the moon after 
President Kennedy issued the challenge. It only took 8 years, 
and that was 1 year after the NTSB first asked for Positive 
Train Control.
    I know we can do it. We just need to hear today what 
impediments remain and what can we do to expedite the 
installation across all of the system in the critical 
categories.
    We defined toxic-by-inhalation routes included in addition 
to the passenger and the other very heavily used routes.
    So I look forward to the testimony. And, if necessary, I 
would urge the committee to take further action if we hear 
testimony today that says we need to take steps to get this 
done.
    Mr. Denham. Thank you, Mr. DeFazio.
    I would now like to welcome our panel of witnesses. First, 
Ms. Sarah Feinberg, Acting Administrator of the Federal 
Railroad Administration, FRA.
    And I want to pay a special thanks. You have continued to 
come before this committee. There have obviously been a number 
of big issues that this committee is addressing, and you have 
not wavered as far as coming before us and answering some very 
difficult questions. So we thank you for being here again with 
us this morning.
    Also, Mr. Charles Mathias, Associate Chief, Wireless 
Telecommunications Bureau, Federal Communications Commission, 
FCC; Mr. Frank Lonegro, vice president of service design, CSX 
Transportation; Mr. Donald Orseno, executive director and chief 
executive officer of Metra Commuter Railroad; and Russell 
Kerwin, deputy project manager of Positive Train Control, 
Southern California Regional Rail Authority (Metrolink).
    I ask unanimous consent that our witnesses' full statements 
be included in the record. Without objection, so ordered.
    Since your written testimony has been made part of the 
record, the subcommittee would request that you keep your 
statements limited to 5 minutes.
    With that, Ms. Feinberg, you are recognized.

  TESTIMONY OF SARAH FEINBERG, ACTING ADMINISTRATOR, FEDERAL 
  RAILROAD ADMINISTRATION; CHARLES MATHIAS, ASSOCIATE CHIEF, 
WIRELESS TELECOMMUNICATIONS BUREAU, U.S. FEDERAL COMMUNICATIONS 
 COMMISSION; FRANK LONEGRO, VICE PRESIDENT OF SERVICE DESIGN, 
CSX TRANSPORTATION, INC.; DONALD ORSENO, EXECUTIVE DIRECTOR AND 
 CHIEF EXECUTIVE OFFICER, METRA COMMUTER RAILROAD; AND RUSSELL 
   KERWIN, DEPUTY PROJECT MANAGER OF POSITIVE TRAIN CONTROL, 
    SOUTHERN CALIFORNIA REGIONAL RAIL AUTHORITY (METROLINK)

    Ms. Feinberg. Thank you.
    Chairman Denham, Ranking Member Capuano, Chairman Shuster, 
Ranking Member DeFazio, and members of the subcommittee, thank 
you for the opportunity to appear before you to discuss the 
implementation of Positive Train Control in the United States.
    PTC technology is arguably the single most important 
railroad safety development in more than a century. The 
technology is not new, though. Elements of PTC have existed 
since the early 20th century. In fact, regulators and safety 
advocates have been calling on the rail industry to implement 
some form of PTC for many decades, the NTSB, since 1969.
    The Rail Safety Improvement Act of 2008 required the 
current functionality of Positive Train Control to be fully 
implemented by December 31, 2015. PTC is required on Class I 
railroad main lines where any poisonous or toxic-by-inhalation 
hazardous materials are transported. It is also required on any 
railroad's main line where regularly scheduled intercity or 
commuter rail passenger service is conducted.
    Following passage of the PTC mandate in 2008, railroads 
submitted their PTC implementation plans in 2010. These plans 
laid out a path forward that would allow each railroad to meet 
the deadline.
    As I have stated to this committee before, safety is the 
Federal Railroad Administration's top priority. The rail system 
is not as safe as it could be without the full implementation 
of PTC.
    A safe rail system requires the full implementation of 
Positive Train Control, and that is why FRA will enforce the 
December 31, 2015, deadline for implementation just as Congress 
has mandated.
    For several years, FRA has been sounding the alarm that 
most railroads have not made sufficient progress in 
implementing PTC. In the 7 years since passage of the PTC 
mandate, FRA has dedicated significant resources and worked 
closely with the railroad industry in order to assist and guide 
implementation.
    We have hired staff to assist and oversee implementation. 
We have worked directly with the FCC to resolve spectrum issues 
and improve the approval process related to PTC communication 
towers. We have built a PTC system test bed at Transportation 
Technology Center in Pueblo, Colorado.
    We have provided approximately $650 million in grant funds 
to support PTC implementation. This includes American Recovery 
and Reinvestment Act grants as well as Amtrak grants and other 
annual appropriations.
    We have requested $825 million to assist commuter 
railroads, and we have issued a $967 million loan through the 
RRIF [Railroad Rehabilitation and Improvement Financing] 
program to New York Metropolitan Transportation Authority, the 
Nation's largest commuter railroad.
    I have also established a new PTC task force team within 
the FRA. That team is aggressively managing and monitoring each 
individual railroad's progress, tracking data, ensuring we have 
the most accurate and up-to-date information, and reporting in 
to me multiple times per week. This team is working in close 
collaboration with the many individuals at FRA based here in 
Washington and in offices around the country already working on 
this challenge.
    But, unfortunately, despite FRA's financial support, 
technical assistance, and warnings, many railroads have stated 
publicly that they will still not meet the December 31 
deadline. Recently, FRA received updated information about PTC 
implementation from 32 of the 38 railroads that we are 
currently tracking for enforcement purposes.
    Initial analysis indicates that Class I railroads have 
completed or partially completed installations of approximately 
half of the locomotives that require PTC equipment, deployed 
approximately half of the wayside units, replaced approximately 
half of signals that need replacement, and completed most of 
the required mapping for PTC tracks.
    By the end of the year, AAR [Association of American 
Railroads] projects that 39 percent of locomotives will be 
equipped, 76 percent of wayside interface units will be 
installed, 67 percent of base station radios will be installed, 
and 34 percent of required employees will be trained.
    According to APTA [American Public Transportation 
Association], 29 percent of commuter railroads are targeting to 
complete installation of PTC equipment by the end of 2015. Full 
implementation of PTC for commuter lines is projected by 2020.
    FRA continues our work to finalize an enforcement strategy 
for those railroads that will miss the deadline. As with any 
regulatory enforcement posture, our ultimate goal is to bring 
all railroads into compliance as quickly and as safely as 
possible.
    Starting on January 1, FRA will impose penalties on 
railroads that have not fully implemented PTC. Fines will be 
based on FRA's PTC penalty guidelines, which establish 
different penalties depending on the violation. The penalties 
may be assessed per violation per day.
    The total amount of penalty each railroad faces depends 
upon the amount of implementation progress the railroad has 
made. FRA is also planning for what will come after the January 
1 deadline.
    In both 2014 and 2015, the department and FRA asked 
Congress to provide FRA with additional authorities that would 
address the safety gap that will exist on many railroads 
between January 1, 2016, and each railroad's full PTC 
implementation.
    These additional authorities would provide FRA with the 
ability to review, approve, and require interim safety measures 
for individual railroads that may fail to meet the PTC 
deadline. These interim safety requirements would be to ensure 
railroads are forced to raise the bar on safety if they miss 
the deadline, but will not and cannot be used to replace or 
extend the deadline.
    In conclusion, I want to extend my thanks and appreciation 
to this committee for its attention and focus on achieving 
implementation as efficiently and quickly as possible. We look 
forward to working with you. And I am happy to respond to your 
questions. Thank you.
    Mr. Denham. Thank you, Ms. Feinberg.
    Mr. Mathias, you may proceed.
    Mr. Mathias. Thank you.
    Thank you, Chairman Denham, Ranking Member Capuano, 
Chairman Shuster, Ranking Member DeFazio, and distinguished 
members of this subcommittee. Thank you for inviting me to 
testify here today.
    Mr. Denham. Can I ask you to pull your microphone a little 
closer.
    Mr. Mathias. Promoting the safety of life and property 
through the use of wire and radio communication is a top FCC 
priority. As the Nation's communications agency, the FCC helps 
coordinate spectrum acquisition by freight and passenger 
railroads. We also manage the statutorily required historic 
preservation and environmental reviews of the poles, antennas, 
and associated infrastructure used to support Positive Train 
Control, or PTC, systems.
    Because the FCC was given no mandate to set aside spectrum 
for PTC purposes, the FCC has been working closely with the 
railroads since 2008 to identify available spectrum on the 
secondary market.
    The FCC has acted swiftly upon request to approve multiple 
spectrum transactions, including the freight railroads' 
acquisition of spectrum nationwide, Amtrak's acquisition of 
spectrum in the Northeast Corridor, as well as requested 
waivers to better enable and test PTC deployment. To be clear, 
the Commission plays no role in designing or assessing the 
railroad's choice of PTC technology. The railroads are 
responsible for PTC design and deployment.
    The country's major freights have led the way in securing 
spectrum for PTC. Through private transactions, they acquired 
nationwide spectrum in the commercial 220- to 222-megahertz 
spectrum band just months before the act became law. These 
railroads quickly focused on utilizing this spectrum when the 
PTC mandate was established.
    When they did, the freight railroads effectively drove 
other railroads, including Amtrak and commuter rails, to 
spectrum in and around the 220-megahertz band for their PTC 
operations as well. For most of the country, this strategy 
appears to have been successful.
    The FCC has proactively facilitated and continues to 
facilitate freight and passenger railroads' successful 
acquisition and lease of spectrum on secondary markets. We have 
also granted the railroads extensive technical waivers, more 
transmitter power, for example, to facilitate the use of this 
spectrum for PTC purposes.
    Spectrum acquisition in the Northeast Corridor differs from 
the rest of the country because Amtrak and the freights are 
deploying two different PTC systems that were not from the 
outset engineered to be compatible in the same spectrum band.
    So unlike in a market such as Chicago, where the freight 
railroads tell us that 11 different railroads can share the 
same block of spectrum using a single PTC system, in the 
Northeast Corridor, the choice to deploy 2 systems requires 2 
blocks of spectrum far enough apart to avoid interference.
    FCC staff will continue to work with Amtrak, the commuter 
rails that use the Amtrak system in the Northeast Corridor, and 
the freights to help identify solutions to these problems.
    PTC infrastructure deployments are also a priority. Federal 
environmental and historic preservation law requires the FCC to 
assess the potential impacts of agency ``undertakings,'' 
including potential impact on properties significant to tribal 
nations.
    To facilitate this process, in May 2014, the Advisory 
Council on Historic Preservation issued streamlined rules for 
future PTC pole deployments. Under this streamlined approach, 
the majority of proposed rules are exempt from historic 
preservation review.
    The Commission has the capacity to receive 1,400 exempt and 
nonexempt pole applications from the major freight railroads 
every 2 weeks. By the middle of June, the freight railroads 
could have submitted as many as 40,000 poles for review. In 
fact, the railroads have only submitted around 8,300 poles, or 
about 21 percent of our total capacity.
    Going forward, issues in the Northeast Corridor remain 
complex and pose significant challenges. We stand ready to work 
with Amtrak, the commuter rails, and the freight rails there 
and across the country to help them meet their evolving 
deployment needs.
    We appreciate this subcommittee's commitment and leadership 
on this issue and its efforts to ensure the successful 
deployment of PTC systems.
    The FCC is committed to working collaboratively with 
Congress, our Federal partners, and the railroads to get the 
job done. I look forward to answering any questions you may 
have. Thank you.
    Mr. Denham. Thank you, Mr. Mathias.
    I would now like to call on the representative from 
Florida, Ms. Brown, to introduce our next witness, Mr. Lonegro.
    Ms. Brown. Thank you, Mr. Chairman.
    I am pleased to introduce Mr. Frank Lonegro--and you can 
correct that name, Frank, when it is your time--who will be 
testifying today for CSX railroad located in my hometown of 
Jacksonville, Florida. Frank has worked for CSX since 2000, 
focused on technology issues, and has taken the lead for the 
Class I Positive Train Control initiative.
    CSX is an employer that plays a major strong role in the 
Jacksonville community. The company and its CEO, Michael Ward, 
have been a long advocate for veterans in Florida and 
throughout the United States.
    Let me just say that I am very proud of the Wounded Warrior 
program. They gave the first million dollars, and they have 
received 2 years in a row the top award from the President for 
over 33 percent of their employees are veterans.
    So, with that, I want to welcome Frank and the other 
panelists. And thank you for joining us today.
    Mr. Lonegro. Thank you, Member Brown.
    And, Mr. Chairman, Mr. Ranking Member, members of the 
committee, thank you for the opportunity to be here. I am Frank 
Lonegro, vice president of service design at CSX. And since the 
passage of the PTC mandate, I have been the project owner for 
PTC at CSX. I also chair the industry committee that is tasked 
with achieving PTC interoperability across 60,000 miles of 
railroad.
    Given the recent Amtrak tragedy and remembering all of 
those who have been impacted by PTC preventable accidents, I 
believe four issues are presented for resolution by this 
committee:
    Number 1, why are most railroads unable to meet PTC by 
2015?
    Number 2, why are a few railroads able to make 2015 while 
the remainder cannot?
    Number 3, what happens if a PTC extension is not passed?
    Number 4, what is the path forward?
    Since PTC was mandated, accidents have happened that were 
PTC-preventable. A turnkey system did not exist in 2008 and had 
to be created by the rail industry. That task continues.
    As one of the many railroaders working on PTC every day, 
let me reflect briefly on accountability. I am ultimately 
responsible for PTC at CSX. And, unfortunately, it will not be 
completed by the deadline. This is not the result of lack of 
will or lack of commitment.
    To the contrary, CSX has provided people, allocated ample 
funding, and ensured executive support. We are hundreds of 
millions of dollars over budget, yet CSX has never hesitated to 
provide the required capital. With these ingredients of 
success, companies do not fail at delivering projects that are 
achievable from the outset.
    Congress shares in this responsibility. The 2015 PTC 
deadline was not grounded in fact. It was a political 
compromise reached after Chatsworth. Various constituencies in 
the House and Senate advocated for 2012, 2014, and 2018. The 
compromise halfway between those extremes gave us 2015, a 
political date, not necessarily an achievable date.
    Other responsible stakeholders are FRA, FCC, and the 
supplier community. The industry has thousands working on PTC. 
The FRA has about a dozen. The PTC final rule was published in 
August of 2014, hundreds of pages of regulations, 6 years after 
the mandate.
    FRA is requiring significant documentation, validation, 
safety assessments, and fault analyses. All are geared toward 
deploying a safe and reliable system, but also require a 
tremendous amount of time and effort on both sides.
    No one anticipated the regulatory requirements relating to 
PTC towers. When FCC realized they would have to clear 20,000 
towers, they imposed a moratorium to develop a better process. 
That moratorium impacted the PTC timeline by over a year. The 
resulting review process appears to be working.
    FCC has also recently approved the antenna height waiver, J 
Block swap, and Canadian border agreement. While each of these 
is complicated, we do need a greater emphasis on speed, given 
that much work remains, especially solving the PTC radio 
interference in the Northeast.
    Lastly, given the complexity of the technical task, our 
supplier partners have yet to hit a major deadline or deliver 
software that is free from defects. In the beginning, I think 
we all believed PTC was further along.
    A few railroads have indicated that they will make 2015, 
most notably, Metrolink in the L.A. Basin and Amtrak in the 
Northeast Corridor. Importantly, both railroads have previously 
promised completion in 2012.
    I remind us of that not to denigrate their great work, but 
to illustrate the challenges of PTC even for small deployments. 
Successful completion in 2015 will be a testament to 7 years of 
hard work by those railroads and great leadership by PTC 
veterans like Darrell Maxey and Keith Holt.
    There are two main reasons why some railroads will make 
2015 while others will not. The first is scale. The Amtrak and 
Metrolink deployments are very similar in size, 100 to 150 
engines and 300 to 500 miles of railroad. In contrast, 
deployment at CSX involves 3,900 engines and 11,000 miles of 
railroad, about 25 times larger. More engines and more miles 
means more time.
    The second is the state of the legacy infrastructure. PTC 
is brandnew technology that does not interface with legacy 
signaling and dispatching systems. At CSX, PTC is requiring us 
to completely replace 7,500 miles of wayside signals, 
geospatially map 21,000 rail miles, and enhance our dispatching 
system to a precision of one ten-thousandth of a mile, all 
while delivering the Nation's freight and passengers. Once we 
are finished, it will no longer be our fathers' railroad.
    If no extension is passed, the railroads have a serious 
legal dilemma. Does the PTC mandate make it illegal to 
transport TIH/PIH [toxic by inhalation/poisonous by inhalation] 
commodities irrespective of our common carrier obligation?
    Similarly, we are also required to allow commuter and 
interstate passenger agencies to run on our lines. Which law 
should we violate? The passenger requirement or the PTC 
mandate?
    If we cannot transport TIH/PIH commodities or passengers by 
rail, the outcome is not good for the American people or the 
American economy. If we continue to haul the commodities and 
the passengers which trigger the PTC mandate, we will be in 
violation of the law and run the risk of regulatory 
enforcement, potential uncapped liability, and questionable 
insurance coverage, an untenable situation for CSX and its 
employees and shareholders.
    The need for an extension is clear. The question is how to 
fashion the extension that recognizes the enormity of PTC, 
rewards railroads that will make 2015, hold the remaining 
railroads accountable to complete the project expeditiously, 
and provide legal certainty for shippers, passengers, and 
railroads alike.
    We look forward to working with you to forge that path 
ahead. Thank you.
    Mr. Denham. Thank you, Mr. Lonegro.
    Mr. Orseno, we have met several times already. But if I 
have butchered your last name as I have twice already and been 
corrected by colleagues, please let us know.
    Mr. Orseno. OK. Thank you.
    Thank you, Mr. Denham, and members of this subcommittee.
    I would also like to thank Congressman Lipinski. You are 
our representative on this subcommittee, and we appreciate your 
championship for transportation.
    I am Don Orseno, executive director/CEO of Metra as well as 
the chair of the APTA Commuter Rail Committee. I was lucky 
enough early in my career to be a card-carrying engineer that I 
was very proud of. I operate trains every single day. It is an 
enormous responsibility that I didn't take lightly, as no 
engineer does.
    A few years ago I was appointed executive director/CEO of 
Metra, and I took those experiences with me early in my career 
to my position now. Let me be clear. Safety is paramount at 
Metra and, to that end, we are committed to implementing PTC. 
But let me also be clear on another item. It is not without 
challenges.
    Metra is one of the largest commuter rail systems in the 
country. Last year we provided over 83.4 million passenger 
trips. We primarily serve customers commuting from the suburbs 
to work in Chicago. We operate 11 lines with 241 stations. Four 
of those lines are owned and operated by the UP [Union Pacific 
Railroad] and the BNSF [Burlington Northern Santa Fe Railway]. 
Chicago is the Nation's busiest rail hub and the most complex, 
with six of the seven Class I railroads operating throughout 
the network.
    Coordination of PTC implementation must include all of 
these railroads. The BN and UP were further along with PTC 
installation than us. So we directed all of our resources to 
put equipment on the trains that will be operating on the BN 
and the UP so we could be compliant when they were.
    Those lines, once they are operational, will be--40 percent 
of Metra's fleet will be PTC-compliant, covering 50 percent of 
our passengers. The BN equipment installation will be complete 
September of 2015, with the UP following closely behind it, the 
second quarter of 2016.
    We have also made significant progress on Metra-owned 
lines. To date, we hired a system integration team, Parsons 
Transportation Group, awarded contracts to engineering firms to 
design signal system upgrades, and continue to hire the 
necessary staff, including leadership positions in the field 
installation crews.
    Even though we have made substantial progress, challenges 
still remain: the limited number of signal design systems, 
spectrum availability. In Chicago, it is undetermined if we 
have enough spectrum for PTC needs in the region. We won't know 
that answer until the spectrum study is completed.
    Continuous verification and validation is part of the 
testing process to test the reliability and accuracy of PTC. So 
far, only testing of individual segments has taken place. The 
FRA must also review and certify the railroad's plans. 
Interoperability is a huge challenge for Chicago, given the 
complexity and the integration of the system.
    Metra's costs are approximately $350 million. APTA 
estimates approximately $3.5 billion for all commuter 
railroads. We receive $150 million per year in Federal formula 
funds. These are the same sources of funds that are used for 
other safety-related critical infrastructure projects, such as 
bridges, tracks, and rolling stock.
    Metra has allocated $133 million over the last 2 years for 
PTC between our State and Federal partners. The Metra board 
approved a $2.4 billion modernization plan last year, which 
included $275 million to complete PTC, which is a combination 
of borrowing and fare increases. The balance would need to come 
from our State and Federal partners, which is uncertain at this 
time. There is also a significant operational and maintenance 
cost. These are estimated to be $15 million annually for Metra.
    Given these substantial challenges, it is no surprise that 
no commuter rail system has fully implemented PTC today. Metra 
is estimating 2019 for full implementation. Metra, along with 
APTA, is asking Congress to provide FRA the authority to grant 
individual waivers for the deadline as long as the agencies 
show a good-faith effort as determined by the FRA.
    Metra is also asking for funding from Congress. On that 
note, I would like to thank Representatives Lipinski and 
Quigley for introducing H.R. 1405, which reauthorizes the 
safety technology program for PTC, which is $200 million 
annually for the next 5 years.
    Even though PTC will not be fully implemented by the 
deadline, Metra, however, has taken significant steps to 
provide safeguards for our passengers. For example, we have 
reviewed the FRA 2015-03 safety advisory and are in the process 
of implementing automatic notifications through our GPS system.
    This system will notify the conductor in advance where the 
speed is reduced by greater than 20 miles per hour for a bridge 
or curve. The conductor will then communicate and remind the 
engineer of the restriction.
    We have also instituted the C3RS program, which is the 
Confidential Close Call Reporting System, in conjunction with 
our labor unions at FRA.
    Before closing, I wanted to bring to the committee's 
attention that, recently, a question was raised at the APTA 
Rail Conference with regards to the commuter rail industry's 
ability to continue to operate past the PTC deadline as it 
relates to insurance liability. The commuter railroads are 
currently investigating this matter.
    It is Metra's commitment, along with the rest of the 
commuter rail industry, to implement PTC as expeditiously as 
possible. With that said, we ask Congress to grant the FRA 
authority to provide waivers based on good-faith efforts and 
the funding to support the implementation of PTC.
    I want to thank the committee for inviting me here today, 
and I will be happy to answer any questions.
    Mr. Denham. Thank you, Mr. Orseno.
    Mr. Kerwin, you may proceed.
    Mr. Kerwin. Thank you.
    Good morning, Chairman Denham, Ranking Member Capuano, and 
members of the committee. My name is Russell Kerwin, deputy 
project manager of Positive Train Control for the Southern 
California Regional Rail Authority, a.k.a. Metrolink.
    I appreciate the invitation to testify today to update the 
subcommittee on the most significant investments Metrolink is 
making to increase the safety of our passengers--PTC. I am 
proud to report that, as of June 14, Metrolink has fully 
implemented PTC in revenue service demonstration, RSD, across 
the entire 341-mile network of Metrolink-owned lines.
    In addition to this major accomplishment, we will submit 
our PTC safety plan to the FRA next week, on June 30, seeking 
FRA certification by the end of the year in accordance with the 
Rail Safety Improvement Act of 2008.
    Metrolink operates on 7 routes through 6 counties in 
southern California, carrying over 43,000 weekday riders. We 
are also a dispatching hub for about 350 trains that traverse 
Metrolink property on a daily basis, including trains from 
BNSF, UP--Union Pacific, that is--and Amtrak.
    Metrolink's PTC program is a locomotive-centric overlay 
system based upon the interoperable electronic train management 
system, a.k.a. I-ETMS software. The full build-out and testing 
of Metrolink's PTC infrastructure was completed over the past 6 
years, which includes PTC onboard equipment installed and 
tested on all 109 locomotives and cab cars, all antennas, 
wayside devices, and PTC radios installed and operational, a 
robust communication network built out and tested, and a new 
hardened dispatch and operations facility for PTC constructed 
and put into service under the project.
    In addition to our network of owned lines, we are also 
working closely with our railroad partners--BNSF, Union 
Pacific, Amtrak, and the North County Transit District--to 
ensure PTC implementation is achieved throughout the region.
    We have been very fortunate to have tremendous support from 
our local freight partners, and we appreciate the many 
challenges to implementing PTC, most of which have also 
impacted our program.
    They include the prolonged nationwide development of this 
interoperable technology and the need for ongoing software 
upgrades, development of our back-office server and dispatching 
systems, relentless testing, impacts to operations, challenges 
in acquiring spectrum, and funding constraints.
    In regards to spectrum, Metrolink has been working with the 
FCC through many challenges to secure approval of the spectrum 
that we entered into purchase agreement for in 2010. Currently, 
Metrolink is trying to follow the same procedures under which 
the FCC's Wireless Telecommunications Bureau recently granted 
Amtrak's application.
    Through our partnership with the freight railroads, 
Metrolink has been fortunate to execute a 5-year lease for 
spectrum from PTC-220, LLC. This lease enables us to meet our 
near-term needs. However, for long-term needs, we are 
attempting to acquire our own spectrum.
    Our current PTC program costs the agency $216.4 million. To 
put that in context, it is roughly equivalent to Metrolink's 
entire annual operating budget of $221 million. The majority of 
our PTC funding, about 85 percent of it, came from State and 
local sources.
    The investment in our PTC program has been very significant 
for the agency. However, it was the priority of the Metrolink 
board and our funding partners to implement this lifesaving 
technology.
    Moving forward, the agency will be required to continue to 
prioritize funding as we transition into operations. The 
ongoing costs for project staff, contractors, consultants, and 
vendors to operate and maintain PTC will increase our budget 
costs. Metrolink is proud to be leading the industry on PTC 
implementation. Despite the many challenges, we have maintained 
our unwavering focus on advancing our PTC program.
    I would like to thank Chairman Denham and Ranking Member 
Capuano for the opportunity to testify and share our 
experience. I will close my remarks by stating that, at 
Metrolink, we continue to believe that safety is foundational 
and our investments in PTC as well as a number of other safety 
technologies are evidence of this unyielding commitment to the 
safety of our passengers. Thank you.
    Mr. Denham. Thank you, Mr. Kerwin.
    Our first round of questioning will be 5 minutes. I would 
ask members to keep their questions to 5 minutes.
    I will start things out this morning, first of all, with 
Ms. Feinberg. Again, let me thank you for your response. The 
last committee meeting, we did something somewhat out of the 
ordinary and asked you for a quick response with some of the 
questions that this committee had on the Amtrak crash.
    I think that those issues are important to resolve and 
understand quickly. And this committee thanks you for your 
rapid response. We are getting those answers to those questions 
back out to committee members this morning.
    But I did want to continue on an exchange that you and I 
have had several times now. I pressed FRA on: If Positive Train 
Control is such a big priority, why are you not using 
California high-speed rail dollars to upgrade not only the 
corridor, but those connecting routes in California?
    In California, obviously, where PTC was started, it is a 
big concern for those that ride the rail in California. It is a 
big concern for those that live by rail in California. You 
know, this is a national issue. But in our home State, we are 
looking to provide leadership to resolve the safety concerns 
that people have quickly.
    And the California High-Speed Rail Authority continues to 
have its challenges. And certainly, by their current burn rate 
of dollars, they do not appear to be able to spend the money 
that has been allocated to them by the deadline.
    And so, in our ongoing exchanges, what else could you use 
that money for? Could it be used for safety in California?
    And I got your written response that it wasn't possible, 
but I wanted to bring one issue to your attention.
    Under California High-Speed Rail Authority's investment 
strategy for phase 1, they specifically state, ``Electrifying 
the entire Caltrain corridor so as to replace outdated diesel 
technology with electric locomotives or electric multiple-unit 
train sets and introducing Positive Train Control will not only 
speed up Caltrain's service, but pave the way for high-speed 
rail. Positive train control is a Federal mandate that will 
reduce the potential for train-to-train collisions and improve 
signaling at crossings so as to allow increased train 
frequencies while enhancing safety.''
    This money was taken from California high-speed rail. They 
approved the grant agreement to put it in a different corridor 
to upgrade Caltrain and put PTCs. Obviously, by their own 
words, this is a priority for them.
    Also, previously FRA has diverted funding from the Central 
Valley with $400 million that went to the Transbay Joint Powers 
Authority to construct the foundation for high-speed rail 
service at the Transbay terminal.
    Again, you are moving money out of California's Central 
Valley hours away to where it may connect some day, if it ever 
gets built, to San Francisco and to L.A. through Caltrain.
    And under the High-Speed Intercity Passenger Rail Program, 
the following activities are expressly eligible for grants, as 
noted in the Federal Register: acquiring, constructing, 
improving or inspecting equipment, track and track structures, 
highway rail grade crossings, improvements related to intercity 
passenger rail service, including communication and 
signalization improvements.
    That sounds a whole lot like PTC to me. Positive train 
control affects each one of those areas. So I understand by 
this they would be able to use these same dollars.
    So I know from your response you say the grantee would have 
to approve this process. The grantee in this case would be the 
California High-Speed Rail Authority.
    But, again, if they are not spending the money and they 
already have the precedent of transferring money and safety is 
all of our number-one concern, why would we not take money that 
is available to be spent in a corridor that is available to be 
spent under Prop 1A and address safety for our State?
    Ms. Feinberg. Mr. Chairman, we have gone back and forth 
about this a lot, and I am happy to continue to go back and 
forth with you, and I know our staffs have had many 
conversations about it as well.
    As I said in my letter to you earlier this week, we do not 
believe that we can take California high-speed rail money and 
put it in other priorities. I explained----
    Mr. Denham. But you have done that a couple of times 
already. They requested that you change the grant approval, and 
you have granted that request. And they have done it several 
times for PTC, for Caltrain, and for the Transbay Joint Powers 
Authority, $400 million, $171 million, and another grant for 
PTC. It has been done several times already.
    Ms. Feinberg. I join you in a concern that the California 
High-Speed Rail Authority is not burning through ARRA [American 
Recovery and Reinvestment Act] money in a sufficiently fast 
manner, and we are working with them very closely to make sure 
that they meet all of their obligations to do so.
    Our legal analysis of where we are at this moment is that 
we cannot shift money that has already been obligated to 
California high-speed rail and move it to another priority. 
Even if we were willing to take money away from California 
High-Speed Rail Authority, it would go back to the U.S. 
Treasury. But we will continue to engage with you on this and 
talk through it with you.
    Mr. Denham. Thank you.
    That appears to be a change in policy, since it has already 
happened several times. I would understand if you need them as 
the grantee to make the request to FRA, then my question would 
be to the California High-Speed Rail Authority: If they have 
already spent money on PTC, why, if this is a priority for FRA, 
the administration, and the California High-Speed Rail 
Authority, are they not improving safety in California?
    Ms. Feinberg. I do not believe it is a change in policy, 
but we can continue the conversation.
    Mr. Denham. Thank you.
    My time is expired. We will have a second round because I 
have got many other questions from a more national perspective. 
But, as you know, California is a big concern of mine and so is 
California high-speed rail.
    I now go to Mr. DeFazio for 5 minutes. And I would 
recognize the fact that Mr. Capuano once again has been very 
gracious to our colleagues on the other side to skip his time 
so that others may go first.
    Mr. DeFazio. I don't think ``Capuano'' and ``gracious'' go 
together in the same sentence, but certainly I would defer to 
your judgment, Mr. Chairman.
    Ms. Feinberg, you heard what CSX raised about the potential 
conflict with the hard deadline and whether or not their 
continued carriage of inhalable and other hazardous and 
passenger--can you resolve that or do we have to statutorily 
resolve that?
    Ms. Feinberg. The Congress is going to have to act. I 
cannot make a legal decision for CSX based on their liability.
    Mr. DeFazio. And you can't give relief because of the hard 
deadline that was set.
    Ms. Feinberg. I cannot extend the deadline.
    Mr. DeFazio. OK. Now, you talked about enforcement and you 
talked about penalties, and I would just like to get a little 
insight into that.
    We are looking forward now, and there is a lot of history 
here, a lot of questions about how we got to this point and how 
some people are much closer to meeting the deadline than 
others, et cetera.
    So are you looking at penalties that exact funds from the 
railroads? You know, wouldn't it be better if you mandate 
everybody puts together a schedule that you would approve or 
not approve in terms of how quickly they can implement, put in 
benchmarks, and then look at assessing penalties going forward?
    Ms. Feinberg. Well, that would really be extending the 
deadline. That would be our view. I mean, the deadline is the 
deadline. And if we then communicate to railroads, ``If you 
don't like the deadline that we have, why don't you come up 
with a plan that involves a new deadline for yourself,'' that 
would actually, in my opinion, be extending the deadline.
    Mr. DeFazio. OK.
    Ms. Feinberg. So we would not want to go about that.
    But in terms of the penalties, there is, you know, three or 
four pages of specific fines and penalties that were finalized 
back in 2010 that, you know, go from everything from not 
equipping a locomotive to failure to have PTC in a certain 
segment, so quite detailed in the public realm.
    Mr. DeFazio. Yeah. But what I am trying to get at here is 
everybody here wants to get this done as quickly as possible. 
There is a lot of history.
    And in order to go forward, I am wondering if we give you 
flexibility from the deadline, but we give you a mandate that 
it will be implemented as soon as technologically and 
physically practicable, you know, by each of those who do not 
meet the deadline and then you set benchmarks and then they 
violate the benchmarks, that is when I think fines might be 
appropriate.
    Would that be a way to go forward?
    Ms. Feinberg. Well, you know, I take my cues from the 
Congress, and I enforce what the Congress mandates. So if the 
Congress instructs us to enter negotiations like that, we would 
do that.
    But, again, my concern would be entering into brandnew 
negotiations with each individual railroad based on what they 
would like their new deadline to be.
    Mr. DeFazio. Well, I am not thinking so much what they 
would like. I am saying that is why as soon as practicable 
physically and, you know, I mean, not something that meets 
their convenience or their capital outlays or whatever. It is 
just like--anyway, this is a difficult issue.
    Quickly to the FCC, you now have the capacity to deal with 
these pole applications and approvals in a streamlined way. 
And, as I understand it, there are quite a few that have not 
been applied for and you aren't pushing your capacity here. Is 
that correct?
    Mr. Mathias. That is correct, sir. Thank you. Since our 
streamline process was put into place, we have had the capacity 
to review about 40,000 poles. To date, we have only received 
applications to review about 8,300. So we are ready for more 
work.
    Mr. DeFazio. OK. That is something to take into account as 
we are moving forward.
    This is off the subject, but I have got to ask you very 
quickly. Mr. Mathias, 5.9 gigahertz--part of the problem here 
was you have to go out and buy spectrum and negotiate and 
Amtrak had to negotiate and I am really concerned about what 
you might do with the 5.9 gigahertz for smart cars and 
communication between vehicles of the future.
    There are some proposals to maybe parcel that up a little 
bit, which might lead to interference, which might lead us to a 
point where smart car manufacturers of the future are going to 
have to go out and buy spectrum as opposed to having something 
reserved. And I just hope you would take that under advisement.
    Mr. Mathias. Thank you, sir.
    Mr. DeFazio. Yeah. OK.
    And then to CSX, how soon can you get it done?
    Mr. Lonegro. At CSX, our plans call for us to be hardware-
installed, meaning all of the wayside interface units, all the, 
you know, obsolete signal replacement work that we are doing, 
all the locomotives equipped, all the technology hardware 
installed by the end of 2018 with full deployment by 2020.
    And, as I say that, though, I think it is important to know 
that, by the end of 2018, we will have a significant portion of 
the system operable. So it is not as if we get to 2020 and then 
we turn on the 11,000 miles that we have under our PTC 
footprint.
    It is a very methodical, you know, almost linear 
implementation pretty much from here on out. We will have about 
500 miles in place by the end of the year, which is about the 
size of the corridor and about the size of the Metrolink 
deployment. And then we get into the thousands of miles per 
year that ramps us up through 2020.
    Mr. DeFazio. Well, again, that seems like a long time. And 
that is why I was proposing the idea that the Administrator--I 
don't think we should be giving people a blanket exemption till 
2020 because some people are going to take till 2020 who don't 
need to. Maybe you do.
    But I think there needs to be some level of review of that, 
and I think that is something the committee will be looking at. 
Thank you.
    Thank you, Mr. Chairman.
    Mr. Shuster [presiding]. I thank the gentleman.
    Ms. Feinberg, you have testified and others at FRA have 
testified before Congress that, if the December 31 deadline is 
not extended, that you will use all the enforcement powers, 
including warnings, emergency orders, enforcement fines, to 
encourage PTC to be adopted.
    But will you share with Congress a transparent policy with 
regard to how you will determine who the good actors are, the 
bad actors are? I think you have categorized them that way. And 
what I am looking for is metrics. Are there ways to measure it 
so that it is not arbitrary, so everybody knows going into 
this?
    And I see you have some bullet points I have here on things 
you intend to do, but I am really looking for how we measure 
CSX versus BNSF versus UP versus Metrolink to be able to 
determine that.
    Ms. Feinberg. Absolutely. And we would not want to be 
arbitrary or subjective. We would want this to be quite black 
and white so that railroads would know what to expect and that 
the Congress would know what to expect.
    What was summarized in my oral testimony was an attempt to 
be quick and to move through the 5 minutes quickly. But our 
plan is to take the penalty and fine schedule that is already 
laid out and to be very transparent about what our approach 
will be and to communicate it both to the Congress and to 
railroads so that everyone knows what to expect.
    Mr. Shuster. Will that be seen? Will we be able to see that 
shortly? When do you expect to have that done? Because the 
deadline is getting awfully close and we want to make sure that 
there is a transparent--because, again, I have seen agencies in 
the past be very arbitrary, don't like one person over another.
    Ms. Feinberg. No. No. That would not be our approach, and 
that would not be the way we would go about it. We will be very 
transparent about it.
    We owe the Congress an update on PTC implementation on how 
railroads are doing in implementing PTC. Due to recent feedback 
we have gotten back from the Congress, it is clear that the 
Congress would like that report to also include very specific 
information about how each railroad is doing individually, but 
also what our enforcement strategy will be. So we are now 
including that in the report and plan to get it to you as 
quickly as possible.
    Mr. Shuster. And if you could go to levying fines against 
people, will that be on a daily basis? Monthly? Weekly? How 
would you levy those?
    Ms. Feinberg. The statute lays out that it can be per 
violation per day, but there is some amount of discretion 
there.
    Mr. Shuster. And would you consider shutting down a 
railroad?
    Ms. Feinberg. I think that would be actually up to--the 
railroad's own lawyers would probably make the determination.
    We have certainly heard from railroads that their lawyers 
are making that determination based on both their liability and 
the likelihood of the magnitude of fines and penalties.
    Mr. Shuster. Thank you very much.
    And in terms of transit systems and commuter rails, my 
understanding is you folks are having a very difficult time. I 
know that SEPTA [Southeastern Pennsylvania Transportation 
Authority] down in the Southeast has to make some real tough 
decisions on whether they are going to repair, replace cars, 
track, because there is just only so much money in the budget. 
Can you tell us a little bit about Chicago?
    Mr. Orseno. Yes. Thank you, Chairman Shuster.
    That is definitely a major challenge for us. As I stated 
earlier, we get about $150 million through our Federal formula 
funds. PTC alone is $350 million to $400 million.
    You know, we have to balance using that money for other 
safety-sensitive concerns like bridges. I mean, bridges are 
very important. We have got many bridges that were built in the 
1800s, and we are in the process of doing those projects.
    It is very important for us to find the funding and make 
sure we can get this implemented. It is a very significant 
safety enhancement. There is no question about it. But it also 
competes with every other safety issue that we have.
    Mr. Shuster. And you have got to be the most challenged of 
all the systems because you have all Class I's coming in around 
Chicago. So that interoperability--is that a significant 
challenge or is that something you are moving towards working 
out?
    Mr. Orseno. That is a huge significant challenge for us 
because you have got six of the seven Class I railroads coming 
in and out of Chicago that have to communicate between each 
train, all the signal locations, and the back office. That has 
been probably one of the most significant challenges for the 
industry, is the interoperability.
    Mr. Shuster. Thank you very much.
    Now go to Ms. Brown.
    Ms. Brown. Thank you, Mr. Chairman.
    Ms. Feinberg, first of all, let me just say that every last 
one of us supports safety in the industry, but I think you are 
leaving me when you talk about daily fines.
    The industry itself has spent over $5 billion on Positive 
Train Control, and I don't feel that the Federal Railroad 
Administration or the U.S. Federal Communications Commission--
we have had daily--not daily--but we have had meetings where we 
have discussed spectrum, and we don't think--I don't think that 
the administration has done all they need to do to move us 
forward.
    And to sit here and say that we are going to have daily 
fines and we may have to shut down the industry is not going to 
fly. And so I would like for you to respond to that
    Ms. Feinberg. Ma'am, I was responding to the question about 
what our authority is in terms of fining. We are now working on 
our enforcement strategy and will communicate it to you.
    Ms. Brown. No. No. I am not talking about enforcement. I am 
talking about support, what we have done to help the industry, 
for example, with the spectrum.
    Amtrak had to purchase it. How come we did not provide it 
for the industry? But I--and they had a hard time getting it, 
and that delayed the projects.
    Ms. Feinberg. I will let the FCC answer the spectrum 
question, but I can tell you from the FRA's perspective, we 
have hired a significant staff. One of the witnesses previously 
said there is only a dozen staff at FRA working on PTC. That is 
absolutely incorrect. We have staff in Washington and across 
the country. We have offered loans. We have asked for grants. 
We have offered financial assistance. We have offered 
assistance across the board. We are still waiting for safety 
plans to come in from railroads based on implementation----
    Ms. Brown. I hear what you are saying. But as far as I am 
concerned, you all have been the caboose as far as helping and 
assisting us moving forward. And I don't mean it in a negative 
sense, but we have had--you haven't been here the entire time--
we have been going over this for years. And we just have not 
gotten the administration where it needs to be as far as 
assistance moving forward.
    I mean, when we say Positive Train Control, it is a 
combination. What happened at Amtrak, it wasn't just: didn't 
have Positive Train Control, didn't have the proper equipment 
as far as the cars are concerned, had to purchase the spectrum. 
It is just a whole list of things that I feel that the 
administration should have worked--and I don't mean this 
administration, I am saying it has been a multiplicity of 
administrations that haven't done everything that they need to 
do to get us where we need to be.
    Now, even if they come up with, well, here we are, even if 
they come up with it in 2018, then it still would take 2 or 3 
years to determine whether or not the system is working 
together.
    Ms. Feinberg. Ma'am, I can only speak for this 
administration. I can't speak for previous administrations. But 
this administration has done a great deal to try to bring 
railroads along and into compliance with a mandate that was 
passed by this Congress in 2008. And we have been sounding the 
alarm for years about our concern that railroads were not going 
to meet the deadline. And so I believe this administration has 
done a great deal of work to bring railroads along, but we have 
not seen the progress that we need to.
    Ms. Brown. All right. I am just letting you know you are 
leaving me. But go ahead to the next person.
    Mr. Mathias. You are asking about the question of the 
Amtrak spectrum?
    Ms. Brown. Yes, sir.
    Mr. Mathias. Thank you.
    The way the railroads approached this process initially, 
they selected a spectrum band in the 220 to 222 megahertz, I am 
sorry to get technical on you. But it is a part of the spectrum 
that was already owned by other people. It has licensees.
    Unfortunately, in that case what we would have had to do to 
give that spectrum to anyone else is we would have had to have 
taken it away from the existing owners through a process that 
would have required compensation, finding them additional 
spectrum, and also potentially would have led to litigation. So 
what we thought would be a more productive approach would be to 
actively work with Amtrak to find spectrum on the secondary 
market that they could use for PTC in the same spectrum block.
    Ms. Brown. Well, as we move forward, that is an issue that 
the Congress needs to address.
    My next round I will go to you, Frank.
    Thank you.
    Mr. Denham [presiding]. Thank you, Ms. Brown.
    Mr. Rice, you are recognized for 5 minutes.
    Mr. Rice. Thank you, Mr. Chairman.
    Ms. Feinberg, and you may not have been around when all 
this started, but why is there the need to create this new 
system? I mean, it seems to me that there are so many systems 
that are similar to this that would be incredibly cheaper and 
quicker to institute. Why did we settle on creating this entire 
new system?
    Ms. Feinberg. Well, I think PTC is actually an overlay of 
some other systems. But if you are referring to ATC [Automatic 
Train Control] and some of the technologies we have talked 
about in this committee previously, it is basically a step 
beyond that. But it would assist in taking human factors off 
the table. It is one of the most important technologies that we 
believe can be implemented for rail safety.
    Mr. Rice. Mr. Kerwin, I am going to switch over to you 
because maybe you know more about the technical aspects. You 
are a project manager, right, you are putting this stuff in.
    Mr. Kerwin. Yes, sir.
    Mr. Rice. I know that there are GPS systems out there that 
you can buy for a thousand dollars that will control the motion 
of a vehicle, right, stop it, start it, and all that kind of 
thing.
    Mr. Kerwin. It tells you where you are at, but as far as 
controlling the vehicle----
    Mr. Rice. I have had one on my boat that cost $900 that 
would steer my boat to a point. Why is this so much more 
difficult than that?
    Mr. Kerwin. The key to PTC is it is not a specific 
technology as much as a specification that it prevents train-
to-train collisions----
    Mr. Rice. Well, I mean, as long as the GPSs were connected, 
it seems to me that it could do that very, very easily. I mean, 
this seems to me that this is light years easier than a Google 
car, or whatever you call the thing, because a Google car has 
got to sense people walking in front of it and obstructions 
appearing, and this doesn't have to do any of that. This just 
has to control motion. I mean, all it can do, it can't steer, 
it has got to go how fast, how slow, or stop, right?
    Mr. Kerwin. Yeah.
    Mr. Rice. It is not that complicated.
    Mr. Kerwin. I understand and appreciate your point. It is 
much more complicated than it would seem. One of the key 
factors is interoperability. The PTC mandate requires seamless 
transition from one railroad to another railroad's property and 
the communication between different railroads.
    Mr. Rice. No, I understand that. But, I mean, this GPS 
technology exists today.
    Mr. Lonegro, I am going to switch over to you. Do you have 
technology today before this technology we are talking about 
here that you know where all your locomotives are? I mean, can 
you tell where they are at any time when they are running?
    Mr. Lonegro. We have had GPS on our locomotives for, I 
would say, the last half a dozen years or so. But I think it is 
important to understand GPS is one of, I will say, 100, just 
for raw numbers, inputs into PTC. It simply provides one input, 
and that is where the train itself is. It is not an indicator 
of speed, it is not an indicator of grade, it is not an 
indicator of where the red signal is, it is not the indicator 
of where the work zone is. And I could go on and on, but I know 
you don't want me to. But that is just one input into it.
    The technology you referred to earlier about ACSES 
[Advanced Civil Speed Enforcement System] is based on a cab 
signal method of operation. At CSX we only have about 400 of 
the 11,000 miles uses cab signal as a method of operation. And 
then ATC is built on top of that, and the ACSES system that 
Amtrak is using is built on top of that, and it is not a system 
that we utilize to run our trains.
    Mr. Rice. All these other guys up here are dealing with 
taxpayers' money and you are not. Did you all do an analysis of 
whether it would be cheaper to use some of these legacy systems 
that could control the train or to create this entire new 
system? I think this says they are doing 23,000 locomotives 
that cost $9 billion. That is about $400,000 a locomotive. Did 
CSX do an analysis to determine whether it would be cheaper to 
modify the existing legacy systems or to create this entire new 
system?
    Mr. Lonegro. So there are a couple answers to your 
question. In the beginning, yes, we did an analysis about 
whether we should go the Amtrak route and the ACSES system or 
whether we should go with the system that the freight railroads 
had been working on since the mid-1990s which the precursor was 
known as CBTM, which was Communications-Based Train Management.
    The thing that is important to know is that there are 
generally three or four methods of operations that freight 
railroads use to navigate their trains. A very small proportion 
of that is cab signal, as I mentioned, signal territory, and 
then nonsignal territory, and there are permutations of all of 
that. The only thing that ACSES works on is that first method 
of operation, which is cab signal territory.
    So we would have had to change the entire method of 
operation of the entire railroad to cab signal which would have 
required both wayside changes, technology changes, as well as 
locomotive changes. And, yes, we did look at the two and 
believe that I-ETMS or the freight version of PTC was the right 
way to go, and still believe that today, sir.
    Mr. Rice. Thank you, sir.
    Mr. Kerwin, you said you spent $216 million on PTC. You 
have got it fully installed now?
    Mr. Kerwin. We have it fully deployed on our network of 
owned lines. We are working with our freight partners and 
Amtrak to get those systems in service.
    Mr. Rice. How many locomotives do you have?
    Mr. Kerwin. 109 locomotive and cab cars that need to be 
equipped.
    Mr. Rice. OK. So you spent about $2 million per locomotive 
then?
    Mr. Kerwin. Our total cost is--our budget is $216 million 
and we have spent about $200 million of that. That is not just 
installations on locomotives. There is a tremendous amount of 
back-office components and wayside components as well.
    Mr. Rice. Sounds ridiculously expensive to me. He is 
messing with his dollars, I believe, if he says he did the 
analysis that came in cheaper that way, I understand.
    Thank you.
    Mr. Denham. The gentleman's time has expired.
    The gentleman, Mr. Lipinski, is recognized for 5 minutes.
    Mr. Lipinski. Thank you, Mr. Chairman. Thank you for 
holding this hearing. Obviously, we all want to make sure that 
we do everything we can for safety. It has been a very 
difficult issue. I want to thank Ms. Feinberg for her work on 
this and other things. A very difficult time coming into the 
position as Administrator here.
    I just want to first make sure that we are all clear. You 
are saying that FRA doesn't have the authority to shut down 
railroads. It is the fines that are what the FRA is able to 
level if the mandate is not extended.
    Ms. Feinberg. Ultimately, if we needed to take the action 
to shut down a railroad, I think we could do that. But my point 
was that I think what we are hearing from railroads is that is 
a decision that they are making in consultation with their 
lawyers on how they would operate on January 1 if they are not 
fully implemented.
    Mr. Lipinski. That makes sense to me. Mr. Lonegro, Mr. 
Orseno, I don't know if you want to add anything to that in 
regard to the fines and the impact that they could have on you.
    Mr. Orseno. Yes, thank you, Congressman Lipinski. Being in 
the commuter side of the industry, we depend very heavily on 
tax dollars. What the commuter rail industry has advocated for 
was an extension, not a categorical extension, but an extension 
based on good faith efforts based on the railroad's ability to 
complete PTC.
    I don't think, personally, it would be in the public's best 
interest to fine railroads that typically don't have the 
funding to implement PTC. I think we need to find a solution 
where we can implement PTC as expeditiously as possible and not 
fine the railroads, because it is just coming right out of our 
pot that we use for bridges and cars and everything else it 
takes to operate the railroad.
    Mr. Lipinski. Thank you.
    Mr. Lonegro, do you have anything you----
    Mr. Lonegro. Yes, sir, if I may. It doesn't matter how big 
the bear chasing you is or how big the cattle prod is, if you 
are running as fast as you can, you can't run any faster. And 
so the fines--I mean, we have spent $1.2 billion. We have got 
1,000 people working on the project. It is hard to say that we 
haven't put the best foot forward that we possibly could.
    And so we have supplied the FRA with both an aggregate 
level of information in terms of where we have been. We have 
done that on an annual basis since the end of 2012. The NTSB 
has asked for it in the interim 6 months. We have provided that 
information. We have given a prognosis on a railroad-by-
railroad basis about when we will be done.
    Mr. Lipinski. I don't have much time, and I don't want to--
--
    Mr. Lonegro. So I don't believe the fines would be helpful.
    Mr. Lipinski. All right. First of all, we all want to sit 
up here and find villains. And in this situation I think it is 
very complex, and there are not easy answers to this. We just 
want to move forward as quickly as possible. I have been in 
favor, I have tried, I have worked on getting more Federal 
funding, especially for commuter rail.
    Mr. Orseno, so you are saying about $350 million to finish 
by 2019. Is that the----
    Mr. Orseno. That is correct. That is a conservative number, 
as we get moving into the process further along, as all these 
things have a tendency to change. But that is a conservative 
number.
    Mr. Lipinski. And did you receive any funding from the 
Railroad Safety Technology Grant Program or any other FRA grant 
programs?
    Mr. Orseno. No, we have not.
    Mr. Lipinski. And would additional Federal funding help 
expedite the safety efforts and help Metra invest in its 
infrastructure?
    Mr. Orseno. There is a very strong possibility that 
additional funding would help us move the project along faster. 
But I also want to be very clear that there is only a limited 
number of resources that are available for installation and 
purchasing things and the supply and demand chain.
    We definitely can look at moving it quicker, and if we had 
Federal funding we could take the funding that we are using for 
that right now for other things. Like I explained before, we 
have got cars that are 60 years old. We have got bridges that 
were built in the 1800s. We could address some of those issues.
    Mr. Lipinski. I just want to also make the point that Metra 
has significantly increased--has needed to increase fares as a 
long-term plan of increasing fares. So you are doing your part 
in regard to that.
    Very quickly, before I conclude, I want to touch on one 
other safety-related issue with Administrator Feinberg. 
Regardless of whatever plan FRA chooses or is mandated to use 
moving forward, I hope your agency keeps careful tabs as I do 
on CN's [Canadian National Railway's] PTC efforts and the 
reports they submit. We already know from CN's reports that 
they have the least ambitious and aggressive timeline for 
finishing their PTC installations and some other issues we have 
had with them, which we have discussed, and I think we need to 
make sure we follow up and keep the rails as safe as possible.
    Thank you. I yield back.
    Ms. Feinberg. Certainly. And if I could just make one point 
in response to the back and forth, we have asked for a sum 
total of $2 billion to go towards PTC implementation and 
technologies, $825 million in GROW AMERICA, but altogether $2 
billion. So we are absolutely in favor of additional Federal 
funding going to PTC implementation.
    Mr. Denham. Thank you. Thank you, Mr. Lipinski.
    Mr. Perry, you are recognized for 5 minutes.
    Mr. Perry. Thank you, Mr. Chairman.
    Good morning, Ms. Feinberg. I have got a question here for 
you. Start out with a little bit of a statement. Just to make 
sure I am clear, it is my understanding the FRA--and this comes 
from testimony--FRA will use all its enforcement powers, 
including warnings, emergency orders, and enforcement fines to 
encourage PTC adoption. Do we know how the FRA would assess the 
fines? Would they be assessed daily? Is there a policy that has 
been defined yet regarding that?
    Ms. Feinberg. So the goal of our enforcement actions, and I 
think probably any safety regulator's enforcement actions, is 
to bring about compliance and implementation as safely and 
efficiently as possible.
    Mr. Perry. I understand the goal. Do you have a policy? Do 
we know what is coming?
    Ms. Feinberg. As we discussed a little bit earlier, we are 
finalizing that now. Most of the enforcement policy is public 
and has been public since 2010. There are various fines and 
penalties based on whether it is locomotives or segments of 
track. But most of it has been public since 2010. And we are, 
in response to the Congress' request, finalizing our strategy 
now so that we can be completely transparent about what 
railroads and the Congress can expect.
    Mr. Perry. So it might be daily, it might be otherwise?
    Ms. Feinberg. That is correct.
    Mr. Perry. OK. So a few weeks ago when you were here 
shortly after the horrible mishap in Philadelphia, I asked you 
how much of the $1.3 billion in stimulus money that was 
received some time ago--because it was such an issue, right, 
and there were questions about Congress and one particular 
party not being responsive and cutting money for PTC--so how 
much of the stimulus money, when everything was in one hand in 
this town, was spent on PTC for Amtrak, in particular in the 
Northeast Corridor, right? Do you remember that question?
    Ms. Feinberg. I do remember that question, and it is $400 
million of ARRA went towards PTC. That is not Amtrak specific. 
And, I am sorry, I didn't realize you wanted just Amtrak 
specific. But it is $400 million total.
    Mr. Perry. $400 million. All right.
    Ms. Feinberg. I believe it is $36 million for Amtrak.
    Mr. Perry. OK. All right. So right now, and that is Federal 
funding, we are looking at $9 billion is what the estimated 
cost of freight railroads. Right? We spent----
    Ms. Feinberg. Total.
    Mr. Perry. Yeah. Total. Right? With this deadline. But you 
can see the dichotomy, you can see the difference, right? We 
don't have PTC where we have money, and we are asking for 
exponentially more. We're not asking----
    Ms. Feinberg. We are asking.
    Mr. Perry [continuing]. But it is the requirement for, 
right, investor owned? This is private money, $9 billion. Let 
me ask you about the arbitrary--the deadline. I am calling it 
arbitrary. What is your opinion about the deadline? Does it 
take into account the technical aspects? Does it take into 
account the frequency spectrum aspects? Does it take into 
account the timeline where the FRA took nearly a year to 
approve one of the single plans, one of the plans that is 
required by each railroad? Does it take into account those 
things, the deadline?
    Ms. Feinberg. It is your deadline. It is the Congress' 
deadline.
    Mr. Perry. I am asking your opinion.
    Ms. Feinberg. I believe it is a good deadline. And, in 
fact, it was the deadline that was reached during negotiations. 
It was preferred by the railroads.
    Mr. Perry. I understand. So you say it is good, but does it 
take into account those things?
    Ms. Feinberg. I believe that in 2008, when you passed this 
deadline, you took those things into account.
    Mr. Perry. You think we did. OK. And we foresaw all the 
things that might occur or not occur regarding frequency 
spectrum, regarding approvals, regarding finances. That was all 
known. There was no political solution to the two sides, one 
wanting earlier, one wanting later.
    Ms. Feinberg. I think there was an understanding in 2008 
that while this would be complicated, it had been called for 
since 1969 and would not be so complicated it would be missed.
    Mr. Perry. OK. Well, I asked for your opinion. I appreciate 
it. So under the Consolidated Appropriations Act of 2015, FRA 
was directed to provide a report to Congress on implementation 
within 180 days. Do you know what the status of that is?
    Ms. Feinberg. Yes. Previously we had a quick discussion 
about it. It was due to the committee, I believe, a week ago. 
In recent weeks we have gotten additional requests from the 
Congress about additional information they want in that report. 
We are updating it now and should have it to you in days.
    Mr. Perry. But was it on time or wasn't it?
    Ms. Feinberg. No, sir, it was due last week, 1 week ago.
    Mr. Perry. So it is not in yet?
    Ms. Feinberg. That is correct. It is supposed to be an 
update on where the railroads are in implementation.
    Mr. Perry. I understand. But Congress also approved that, 
gave 180 days. Everybody agreed. There was a negotiation.
    Ms. Feinberg. But Congress has asked for it to now include 
our enforcement strategy and railroad-by-railroad information.
    Mr. Perry. Things changes, right? Things change. So who 
should we fine at the FRA when they are not timely?
    Ms. Feinberg. You can feel free to hold me accountable for 
the fact that the report is a week late.
    Mr. Perry. What should the fine be?
    Ms. Feinberg. I will leave that to you.
    Mr. Perry. Thank you, Mr. Chairman. I yield back.
    Mr. Denham. Thank you, Mr. Perry.
    Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman.
    You know, I travel on the Northeast Corridor constantly 
back and forth, and I am still trying to get this idea with the 
spectrum, how we end up with two. And places like Chicago, they 
only have 1 and more than 11 companies use it. I just don't 
understand why we just can't come up with one system.
    Now we have to worry where one is going to interfere with 
the other? To me, it just doesn't make sense when other parts 
of the country use one system. Could somebody address that? How 
did we get to this? How did we get to this point?
    Mr. Lonegro. I think it goes back to the conversation we 
had a few minutes ago where the ACSES system for Amtrak was 
really developed for passenger rail, and specifically for high-
speed passenger rail. There is a certain way that passenger 
railroads run their operation, and they utilize certain 
technologies to run their trains, dispatch their trains, and 
the freight railroads have, literally, a different way of 
running the railroad. And so those two systems----
    Mr. Sires. But is this a company not making a concession to 
the other or Amtrak not making a concession to you? I mean, I 
don't understand it.
    Mr. Lonegro. Well, we are all making concessions, candidly.
    Mr. Sires. Well, how did we end up with two if we are all 
making concessions?
    Mr. Lonegro. The systems are separate. They rely on 
communications as a fundamental aspect. And so what we are 
really doing is the data transmission is using two radios, 
which are going to use two separate but close pieces of 
spectrum, and the closer those pieces of spectrum are the more 
interference there can be. But I would say that we are actively 
working between Amtrak, the Northeast commuters, as well as the 
FCC to solve that problem, and we believe we have line of sight 
to that. I don't know if Mr. Mathias would like to comment on 
that.
    Mr. Sires. The FRA states that 40 percent of all accidents 
are a result of human performance failures. The railroads, 
however, claim that PTC would only prevent 4 percent of all 
accidents, inferring that the cost outweighs the benefits. How 
did we come up with 4 percent?
    Mr. Lonegro. We looked at all of the accidents over, I 
believe it was either a 10- or a 12-year period, all accidents. 
Right? And I am not sure that the FRA looked at all accidents. 
They may have looked at a subset of all accidents.
    Accidents are generally caused by a couple of things, 
either the conditions or the behaviors. Right? The conditions 
could be track related, signal related, how the car operates or 
some of the components on that, and the same on the locomotive 
side, and then you have behavioral based. So is there something 
that happened in the cab of the locomotive, the human factor 
side of things.
    We looked at the entire portfolio of accidents and did the 
math on things that we thought were PTC preventable and were 
not, and came up with that 4 percent. At CSX it is actually 
only 2 percent.
    Mr. Sires. Two percent?
    Mr. Lonegro. Yes, sir, 2 percent of all accidents PTC 
preventable.
    Mr. Sires. So, in other words, in your eyes you don't think 
it is worth it to make this investment?
    Mr. Lonegro. You know, I think we are well past that 
conversation, to be honest with you, Member. We have already 
spent $1.2 billion on it. We have good line of sight to 
completion of the hardware by 2018 and full deployment by 2020. 
I think we are well past that conversation.
    Mr. Sires. All right. Thank you, Mr. Chairman.
    Mr. Denham. Mr. Hardy, you are recognized for 5 minutes.
    Mr. Hardy. Thank you, Mr. Chairman.
    Ms. Feinberg, I read your testimony clear through, and it 
states in your testimony it seems that FRA is ready to act, 
directing penalties on PTC if not implemented. Also you state 
that FRA is ready to act in the interim to bring railroads into 
safety compliance. You suggest that Congress should authorize 
FRA to require railroads to use alternative safety technology 
on specified lines. You also say, and I quote: ``These 
requirements will likely be costly to railroads.'' Can you 
share with me your ideas on this alternative technology?
    Ms. Feinberg. Sir, what I was referring to was what I would 
refer to as the safety gap that will exist between January 1, 
2016, so the day after the deadline, and when PTC is actually 
implemented by each railroad, and what, if anything, should be 
done to raise the bar on safety during that gap.
    So whether it is additional communication between 
crewmembers, an additional person in the cab, we have not made 
final determinations. I think they would be railroad-by-
railroad specific. But it would be how do you increase safety 
between the date of the deadline that is missed and when PTC is 
actually implemented.
    Mr. Hardy. In your testimony you stated that these will be 
costly to railroads. So you have clearly run the numbers on how 
much it will cost. Can you share with me those calculations or 
how you come to that point with that statement?
    Ms. Feinberg. We just frequently hear from railroads that 
items like additional crewmembers are quite costly. That is 
based on that assertion.
    Mr. Hardy. OK.
    Mr. Orseno, with safety being paramount, I would like you 
to delve into the costs a little more. In your testimony that 
the commuter and the freight rail industries will have spent 
over billions of dollars on PTC implementation, although 
progress has been substantial, but it remains to be done before 
PTC can be safely implemented nationwide, companies, on how 
much money have they spent out of pocket, do you believe these 
costs will be passed down to consumers, which is naturally what 
happens, but I just want to hear from you.
    Mr. Orseno. In my opinion, yes, they would be passed down 
to consumers. When we raise our fares in order to cover PTC 
costs and other items, we have to pass those costs on, and we 
only have X amount of State and Federal funding.
    The challenge that we have on the commuter rail side is the 
higher you raise the fares, the less likely you are going to 
retain all of your ridership. At a time when we want to get 
more people on our trains and off the roads, that is a big 
challenge for us. So it is a very difficult balancing act to 
still be able to provide safe, valuable service for our 
customers.
    Mr. Hardy. Do you believe that we have done all that we can 
as a committee, as Congress, to help move this process forward? 
Do you feel like you are being penalized for our lack of action 
or inaction or FRA's actions or inactions? I would like to hear 
your opinion on that also.
    Mr. Orseno. That is a challenging question.
    Mr. Hardy. Yes, it is.
    Mr. Orseno. The answer is this is a very expensive 
proposition for all railroads, especially commuter railroads 
where we don't have the type of funding that we need. I believe 
that Congress needs to fund the PTC project. It is important. 
It is important for the safety of our customers, our employees, 
and the communities we operate through. So it is very important 
to me that the Federal Government supply some funding for it.
    Mr. Hardy. Thank you.
    Mr. Lonegro, you made the statement that the immediate 
impact of the deadline will be that RSIA [Rail Safety 
Improvement Act] has the potential of making certain rail 
operations illegal. Can you discuss these ramifications a 
little bit more, if you would, please?
    Mr. Lonegro. Yes, sir. We are in a legal dilemma, as I 
mentioned in the opening testimony. We have a law that requires 
PTC to be implemented on lines that carry passengers and lines 
that carry certain commodities, TIH and PIH commodities. And so 
the transport of those after January the 1st of 2016 would run 
in contravention to the Rail Safety Improvement Act. Yet we 
also have a common carrier obligation that requires us to haul 
freight that is tendered on reasonable requests and at 
reasonable terms and conditions.
    And so we are in a situation of which law do we violate. 
And we have that same conundrum on the passenger side. I mean, 
Amtrak runs over us, a law that is 40, 45 years old, and so we 
are required to allow Amtrak to run as well as a number of 
other commuters, including Mr. Orseno.
    And we also have this obligation under the Rail Safety 
Improvement Act which requires us to complete PTC on those same 
lines. And so if we are not able to meet it on those lines, do 
we need to tell Mr. Orseno that he can't run?
    I mean, these are the challenges that many, many lawyers 
right now are trying to resolve, and we don't have the answer 
to that quite yet.
    Mr. Hardy. Thank you. My time has expired.
    Mr. Denham. Thank you, Mr. Hardy.
    Ms. Esty, you are recognized for 5 minutes.
    Ms. Esty. Thank you, Chairman Denham, and thank you for, 
remarkably gracious Ranking Member Capuano, for waiting so 
long. I want to thank both of you for holding today's hearing. 
This subcommittee's work is extremely important to the 
thousands of folks in my district in Connecticut who ride these 
rails every day and to the businesses who rely on the freight 
service, as well, in northwest and central Connecticut. And I 
hear from a lot of those commuters that they are very concerned 
about rail safety, as you can imagine, with the last 2 years.
    And we have been talking about, ever since the fatal 
collision in 1969, we have been talking about Positive Train 
Control. And as you can sense from today's hearing, there is 
increasing impatience and concern about how long that is 
taking.
    Now, I think we really need to get down to brass tacks of 
what are the carrots and sticks? What are the incentives at 
this time, recognizing the difficulty with spectrum, the 
difficulty with interoperability, and with the budget 
challenges, what do we do now to move this forward as 
expeditiously and safely as possible? And that is where I would 
like to start from. The past is the past. We are here now. We 
are in June of 2015. How do we get this moving forward to keep 
people safe?
    So first, Acting Administrator Feinberg, again, thank you 
for your patience and your transparency and your exceptional 
availability to us on the committee. We value that quite a lot. 
In your testimony, you noted that you think FRA needs the 
authority, given the situation right now, over PTC control 
systems, to test them, as well as to provide for interim safety 
measures when they do not meet that deadline, which it is all 
very clear most of them will not be meeting that deadline. 
Could you expand and say what should we be doing in this 
committee, what should this committee of jurisdiction be doing 
to give FRA authority, and why?
    Ms. Feinberg. Thank you for the question.
    I think the most important thing that we can do starting 
now and going forward is to provide railroads with the 
resources that they need to implement PTC. So this 
administration has asked, the FRA has asked for significant 
resources for the commuter railroads so that they can implement 
PTC. I think that is the most important thing that can happen.
    But additionally, in terms of our authority, the statute is 
quite narrow. And so, as others have discussed, we really do 
run into a problem on January 1 where the law is the law, and 
despite the preferences of railroads, I can't give waivers, I 
can't base waivers on good faith, I can't extend the deadline, 
and I won't extend the deadline. And so we have to figure out 
how to move forward past January 1 to make sure that 
passengers, folks who live near and along rail are safe.
    And so I am happy to continue to work with the Congress on 
that, but the most important thing is to make sure that we are 
providing resources so that we can actually bring this 
technology online quickly.
    Ms. Esty. A quick followup question. Do you believe that 
the railroads that fail to meet that deadline, and I am asking 
now under current law, will be subjected to increased tort 
liability? Because the insurance issues were already raised 
here today. That is obviously a very, very big stick that, 
again, I think this committee needs to understand what is the 
legal opinion of FRA about that as well as the railroads.
    Ms. Feinberg. The opinion of the FRA--look, I don't want to 
give the railroads legal advice, and I am probably the only 
person in this room who is not a lawyer, but we are certainly 
hearing from the railroads that they absolutely believe that 
they are increased liability as of January 1, and we would--we 
agree with them.
    Ms. Esty. Well, I think we need to get to work on that 
because that is not in anybody's interest as we move forward.
    Mr. Mathias, good to see you. We went to college together. 
So thank you for being here. I am hearing from the railroads, 
and particularly in the Northeast Corridor, we hear other 
Members reference this, the difficulty about spectrum. What is 
it from your perspective, from the FCC's perspective, that we 
can do, particularly in a very congested space--and that is 
spectrum space, as well as physical space--that we should be 
doing to expedite the safety in the Northeast Corridor, the 
most heavily trafficked area in the country?
    Mr. Mathias. Thank you. And it is good to see you too. 
Thank you for your question.
    We have an increasingly good news story in the Northeast 
Corridor with regard to spectrum. It is my understanding that 
currently Amtrak has the spectrum it needs to deploy, which 
would be relevant for Connecticut. In addition, we currently 
have in front of us a proposed transaction that would provide 
the MTA additional spectrum to provide coverage between New 
York and New Haven, which would fill a gap in their spectrum 
coverage, and we also understand that the MBTA has the spectrum 
that we need.
    So what our job will be is to ensure that we are working as 
quickly as we can and are fully engaged to make sure that those 
transactions are completed as quickly as possible as soon as we 
have the information and to be ready in case something changes.
    Ms. Esty. Thank you very much.
    Mr. Denham. Thank you.
    Mr. Mica.
    Mr. Mica. OK. Let's go right to Mr. Mathias. You were 
talking about the Connecticut connection, putting PTC in from 
Boston to New Haven. Isn't that most of what Amtrak doesn't 
own?
    Mr. Mathias. No, sir. The Amtrak has spectrum----
    Mr. Mica. But that is where it was installed. It is 
installed there, isn't it? Last hearing you gave us a map, and 
that one was--that was pretty much complete.
    Mr. Mathias. Yes, sir.
    Mr. Mica. Right. But that is really mostly under a private 
operation. Amtrak runs trains over it. They don't own that part 
of the line. I am telling you that they don't own it. I know. 
OK? All right. Just interesting that they could get it done. 
OK.
    Let's go to the Acting Administrator. Here she is back 
asking for money again. And last question I asked, how many 
RRIF loans had been given since 2012, and first I got an answer 
of until last year two, and then add one, we got to three. Is 
it still three RRIF loans since 2012?
    Ms. Feinberg. Yes, sir.
    Mr. Mica. OK. How many of those were for PTC?
    Ms. Feinberg. One.
    Mr. Mica. One. OK. You could say 33 percent of them. It 
sounds more impressive.
    Ms. Feinberg. Good idea.
    Mr. Mica. Let's go back to our communications guy. There 
was an 11,000 backlog you took care of. At one time I thought 
there were as many as 20,000 applications.
    Mr. Mathias. We understand from the railroads that their 
total deployment would be approximately 30,000----
    Mr. Mica. What is your number of applications approved and 
what is your backlog at this point?
    Mr. Mathias. We have had before us for review 8,300. We 
have no backlog today.
    Mr. Mica. No backlog. They are all approved. And you are 
expecting more. In the past, and I gave you credit, before your 
average processing was about 2,000 a year. Is that correct or 
did I lie?
    Mr. Mathias. I think we are able to do more.
    Mr. Mica. OK. Where is my guy from--OK, Metrolink. When was 
the accident at Metrolink?
    Mr. Kerwin. 2008 was the Chatsworth.
    Mr. Mica. 2007?
    Mr. Kerwin. 2008.
    Mr. Mica. 2008. Mr. Oberstar, we did the bill. You still 
don't have Positive Train Control in all of Metrolink service, 
or do you?
    Mr. Kerwin. We have our entire system of Metrolink-owned 
lines in service.
    Mr. Mica. By what?
    Mr. Kerwin. Metrolink-owned lines are all in service.
    Mr. Mica. With Positive Train Control.
    Mr. Kerwin. With Positive Train Control.
    Mr. Mica. OK. What is missing then?
    Mr. Kerwin. The lines that we run on with our freight 
partners are not currently PTC operational with our trains.
    Mr. Mica. But Ms. Feinberg, we will go back to here, she 
just testified she is going to hammer those freight people and 
the hammer is coming down the end of the year. Right? Is that 
what you said? I heard you in the beginning.
    Ms. Feinberg. I said we would enforce the deadline.
    Mr. Mica. You are going to enforce it, right. Well, that is 
kind of interesting because then I see you submit a budget that 
proposes a 6-year schedule, 2016, of funding commuter railroads 
to implement PTC. So is it going to take another 6 years?
    Last I checked, there are not a lot of passengers on 
freight trains. Isn't that right? I mean, most of them I know 
they are carrying freight not people. But I would think people 
would be pretty important. Most of those people that were 
killed out there in that incident were people. It might have 
disrupted some freight traffic, but it was people. So is this 
the new policy: On people and commuters we are going to take 6 
years, but we are going to hammer those freight people, aren't 
we?
    Ms. Feinberg. Well, no. So, first of all, we will enforce 
the deadline against all the railroads, not just the freights.
    Mr. Mica. OK. But then we have a plan to go forward with--
--
    Ms. Feinberg. If they can implement it sooner, that would 
be great. Happy to use those resources for other items.
    Mr. Mica. Cameras. Metrolink, you got them? Are there 
cameras in the cabs?
    Mr. Kerwin. Yes.
    Mr. Mica. All of them?
    Mr. Kerwin. We have all inward facing cameras in all of our 
cabs.
    Mr. Mica. OK. Because that has been a recommendation of 
NTSB for some time since that accident, and I cited all the 
other times back to 1973, and they weren't implemented in most 
instances.
    Mr. Kerwin. Ours have been implemented since 2009.
    Mr. Mica. OK. Last thing. Is TIFIA [Transportation 
Infrastructure Finance and Innovation Act] eligible for use of 
installation of Positive Train Control? Does anybody know?
    Ms. Feinberg. TIFIA, not RRIF?
    Mr. Mica. Yes.
    Do we know? Does anybody know? Staff know or anybody? Come 
on. Some of you guys are brilliant on the other side. You don't 
know? It is? OK.
    They think it is. So that is a mechanism for funding. But 
let me tell you the last thing before I conclude. I have 7 
seconds.
    I was flying up here and I met a guy on a plane. I didn't 
know him from Adam's house cat.
    ``What are you doing on the plane, Mr. Mica?''
    ``Well, I am coming back to DC.''
    I said, ``Why are you coming back to DC?''
    He says, ``Well, I am with some kind of a project, and we 
finance projects.'' And he says, ``It took us between 60 and 90 
days to get approval for financing under TIFIA, the private 
sector.''
    I said, ``Well, what are you doing here?''
    He says, ``It has taken us a year.'' He says, ``These guys 
are screwing around with the paperwork for a year.''
    So you can go out and get private sector financing while 
they screw around in DOT, and here is a mechanism that may be 
available and is available, and you have huge capacity at RRIF, 
and both of them don't work.
    Did you want to respond on your own time, because I am 
over?
    Ms. Feinberg. Sure. I believe that under Secretary Foxx 
both of those programs have moved along much faster than they 
have previously. There is always room for improvement.
    Mr. Mica. Mr. Chairman, I have got to go to the medical 
center.
    Mr. Denham. Thank you, Mr. Mica.
    And the previous chairman did say that the witness' time 
was also the Member's time today.
    Ms. Hahn, you are recognized for 5 minutes.
    Ms. Hahn. Thank you, Mr. Chairman, for holding this 
hearing.
    Thank you to my colleague Mr. Capuano for yielding to the 
rest of the committee.
    First of all, I want to commend Metrolink, the second-
largest rail system by size in the country, for the outstanding 
work that they have done in meeting our PTC deadline. I like it 
that you worked closely with your railroad partners, BNSF, 
Union Pacific, Amtrak, to make sure that their technologies 
were interoperable and worked hard to acquire the funds needed 
to fund the implementation of your system. I want to point out 
that 85 percent of the funds that Metrolink used to fund the 
rollout were from the State of California and local sources, 
only 15 percent were Federal.
    PTC is clearly a top priority for me, and it really is for 
the American people. I think when the American people hear that 
we can prevent train accidents and deaths of people by the 
implementation of PTC, they are also very frustrated that many 
railroads are not going to be meeting our deadline. But I will 
say, I would like to go on record and agree to disagree with 
Chairman Denham, that I don't think we should take money from 
the California High-Speed Rail Authority to pay for PTC. The 
California High-Speed Rail Authority has it within their budget 
to make sure that there is PTC on the California high-speed 
rail project. We need to find money for both.
    I am going to ask Mr. Mathias my first question, and we 
have heard from testimony a major part of the process to 
implement PTC is acquiring the spectrum. According to 
Metrolink, the process of acquiring spectrum has been trying 
and prolonged. It purchased the license for spectrum 5 years 
ago, and before they can use it, they need FCC's approval. In 
order to meet the deadline, Metrolink is currently leasing 
spectrum at the rate of $50,000 per year from freight railroads 
while awaiting the approval.
    I think everyone is going to want to know, why has it taken 
5 years to approve the use of spectrum? Is this normal? And 
shouldn't we have, in light of the recent accidents and in 
light of this urgency to prevent future accidents, shouldn't 
there be an expedited process for approval for projects that 
deal with our public safety?
    Mr. Mathias. Thank you for that good question, and I can 
appreciate your concern. We are very glad that Metrolink 
actually has been able to negotiate a lease and that they will 
be able to have spectrum necessary to provide the PTC service.
    We understand their concern and frustration that the 
spectrum that they had intended to purchase has taken so long 
to acquire. Unfortunately, it has been mired in Federal 
litigation, as well as in a closed proceeding at the Federal 
Communications Commission, so unfortunately I can't provide 
details.
    But what we are trying to do is as much as we can to keep 
that process moving. We have taken the extraordinary step of 
taking the spectrum that they wish to acquire out of our closed 
proceeding so that we can move forward. They have several 
waiver requests that they need that would facilitate their use 
of the spectrum that are pending before us. We understand they 
need to update those. We look forward to receiving that 
information.
    Ms. Hahn. Thank you. But, again, I think the American 
people are not going to be very sympathetic with excuses for 
the FCC not approving spectrum applications as quickly as 
possible. And I sort of agree with my colleague Ms. Brown on it 
is sort of difficult to be fining and enforcing the deadline 
when some of our own agencies are not moving as quickly as most 
of us would like. So I am just going to say that.
    OK. Mr. Kerwin, you are a model, as I said. I am very proud 
of Metrolink in California. Maybe since you have been able to 
meet the deadline and you have been able to jump over obstacles 
and through the hoops to actually make this happen, what advice 
would you give other commuter rail lines in this country who 
are trying to meet the deadline by the end of the year?
    Mr. Kerwin. Sure. Thank you for that question.
    I would like to actually thank Mr. Lonegro for his shout-
out to our project director, Darrell Maxey, who has been just 
diligent in pushing this project forward. That sentiment has 
come all the way from the top ranks of Metrolink. The board, 
our grantors have made a very, very strong commitment to this 
project. So the funding that they provided has been really the 
crucial element in getting this project going, along with that 
adamant support from our board to really get this project 
started.
    So we started early and made a very concerted effort, 
around the clock been working very hard at it for many years. 
So it is hard to give--I wouldn't say there is a silver bullet 
for other commuter railroads to accomplish it. It has been a 
very challenging process. So we do sympathize with the many 
challenges which we have also encountered.
    So I would say that the funding is a key element and having 
a close working relationship with your freight partners that 
you operate with, because really that was the other key element 
for us, was the strong support that we had from our freight 
partners.
    Ms. Hahn. Thank you. And, again, you have been a model for 
the country, and we applaud you.
    Mr. Denham. Thank you.
    Mr. Duncan, you are recognized for 5 minutes.
    Mr. Duncan. Thank you very much, Mr. Chairman. I am sorry I 
had to be at another hearing until just a few minutes ago.
    But, Ms. Feinberg, maybe you have covered this, but let me 
ask you this. It has taken these railroads several years to get 
to the point where they are now, and apparently there is still 
a pretty good ways to go. And I am wondering, do you have any 
estimate of how long it is going to take your agency to certify 
a railroad after this process?
    Ms. Feinberg. So the step is first a safety plan is 
submitted to us. So it is basically the railroad's plan for how 
they will implement PTC and how they will ensure that the 
system is working. We have received one of those and have 
turned it back around to the railroad.
    They take a while to go through because you are not only 
reading the plan, but you are in close consultation with the 
railroad talking through it, offering edits and changes to make 
sure that the system is going to work. So it takes a while.
    But we feel pretty confident that as they roll in, we will 
be able to staff up and turn them around in the kinds of time 
periods that we have laid out for the railroads. But as of now, 
we have just received one.
    Mr. Duncan. Are you satisfied with the progress that the 
railroads have made thus far?
    Ms. Feinberg. I am not satisfied. I would not be satisfied 
unless the deadline were going to be met.
    Mr. Duncan. My dad told me years ago, and I don't remember 
what he was talking about at the time, but he said everything 
looks easy from a distance.
    And I was reading over Mr. Lonegro's testimony. Just for 
CSX it says the tasks are still monumental. And it said CSX has 
to do ``a complete airborne-laser imaging survey of our entire 
21,000-mile network'' to have ``all assets mapped to within 7 
feet of their precise location, installation of 5,202 wayside 
units, replacing signals along 7,500 miles of track, installing 
1,285 base stations, equipping 3,900 locomotives, training 
16,000 employees.'' I mean, these tasks, monumental is being 
conservative when you say that.
    And, Mr. Lonegro, tell me about the safety record of CSX so 
far.
    Mr. Lonegro. We have been an industry leader for the last 2 
or 3 years in safety, sir, and the whole industry, if you go 
back and look at especially the train accident statistics, has 
seen significant, 40 to 50 percent reductions in train 
accidents since the 2000 time period.
    Safety is a core value of CSX. Safety is a way of life. It 
is the first core value that we have, and it is very similar at 
every other railroad. So, I mean, every day we live and breathe 
safety, whether it is to improve conditions along the railroad, 
the track infrastructure, the signaling infrastructure, the 
equipment side of the house, cars, locomotives, and the human 
factor side of the house, the training efforts that we do.
    We have a technology called ERAD [Event Recorder Automated 
Download], which is a virtual road foreman that looks exactly 
how that train was handled to figure out whether there are any 
anomalies in that train handling and then have a coaching 
session with that employee. If they were over speed, right, we 
have a conversation with them. If they happen to breach a red 
signal, they are taken out of service and decertified.
    We have lots of things that we are doing. We are starting 
down the inward facing camera path a la Metrolink to understand 
the exact behaviors in the cab that contribute to accidents.
    So I would say we are doing an awful lot on safety, sir.
    Mr. Duncan. Well, the committee staff gave me a statistic a 
few minutes ago, and they said that the freight rail system is 
99.995 percent safe based on the number of trips that are 
taken. I don't know, that seems to me to be a phenomenal safety 
record. My staffer Don Walker told me a short time ago that the 
Wall Street Journal said that 2014 was the safest year ever for 
the rail industry.
    Now, I mean, everybody has tremendous sympathy for these 
families that lost loved ones in the Amtrak accident, but, my 
goodness, now we are going to be spending billions, already 
have spent billions and going to be spending billions more to 
try to make something that is already one of the safest things 
in the entire world. And I am thinking that we would be far 
better off to spend those billions in many, many other ways, 
cancer research and everything else.
    My time is up. Thank you, Mr. Chairman.
    Mr. Denham. Thank you, Mr. Duncan.
    Mr. Capuano.
    Mr. Capuano. Thank you, Mr. Chairman.
    Mr. Denham. Thank you for being so gracious with your time.
    Mr. Capuano. Gracious. Get that Pete? Gracious.
    Mr. DeFazio. Yeah. Twice.
    Mr. Capuano. I want to thank the panel too.
    Ms. Feinberg, we are all here today because we think PTC 
can save lives. I think everybody agrees with that. If you are 
a week or two or a month late with a report, does anybody die?
    Ms. Feinberg. No, sir.
    Mr. Capuano. Are there any major property losses?
    Ms. Feinberg. No, sir.
    Mr. Capuano. OK. If one of the major railroads came to you 
and said, ``We are not going to make December 31, but we are 
going to make January 15, we are going to make February 1,'' 
are you likely to be imposing big fines on somebody who is 
going to be a few weeks or a month late?
    Ms. Feinberg. Highly unlikely.
    Mr. Capuano. I didn't think so.
    Mr. Kerwin, it cost roughly $200 million, a little over 
$200 million to institute the PTC on your system. Is that 
right?
    Mr. Kerwin. Yes, sir.
    Mr. Capuano. How much did the Chatsworth accident cost?
    Mr. Kerwin. In excess of that amount, I would say.
    Mr. Capuano. So in hindsight, knowing what that accident 
cost versus what the system cost, the system has already paid 
for itself.
    Mr. Kerwin. Yes, sir.
    Mr. Capuano. If it has paid for itself on your line, do you 
think it is a reasonable thing to say that it would pay for 
itself on any other line in avoided accidents?
    Mr. Kerwin. Yes, I would agree with that.
    Mr. Capuano. I think so too.
    I guess nobody here believes--nobody wants any fines. There 
is no reason to have fines. We all understand that, Mr. Orseno. 
We have a commuter rail system too. We get that. But at the 
same time, we are sitting here 7 years later with some of the 
major railroads having done virtually nothing. How would you 
suggest, let's assume that we could come together as a 
Congress--by the way, Ms. Feinberg, who set this December 31 
deadline?
    Ms. Feinberg. The Congress.
    Mr. Capuano. And are you empowered to ignore that?
    Ms. Feinberg. No.
    Mr. Capuano. Are you empowered to change that deadline?
    Ms. Feinberg. No.
    Mr. Capuano. So it is only us?
    Ms. Feinberg. Correct.
    Mr. Capuano. OK. I think that any reasonable person here 
understands the deadline is not going to be met. Any reasonable 
person understands the deadline has to be extended. We are not 
looking to do fines.
    Now, if we don't, I would not ask Ms. Feinberg or anyone 
else to ignore the law. I would hope that Congress can come 
together and do this. At the same time, once we do it, how do 
we avoid a bad actor from simply ignoring it again for any 
reasonable period of time, 2 years, 3 years, 5 years, 10 years, 
without a stick?
    Mr. Orseno.
    And I don't want the fines, but how do I do it any other 
way?
    Mr. Orseno. Well, I think, as was brought up here today on 
many occasions, I believe that at the onset from the 2008 Rail 
Safety Improvement Act, that was a date that was agreed upon. I 
think once we got into the significant challenges that it----
    Mr. Capuano. I understand how we are today. Let's assume 
today, right now, if I said to you write a law that says in 
some period of time, some reasonable period of time, 2, 3, 5 
years, pick a timeframe, we are going to have this done, how do 
I then enforce it if I don't have fines?
    Mr. Orseno. Well, I think we would need to look at it at 
that time. But I think the key issue is right now we aren't 
going to meet the deadline. And it is not from lack of effort. 
If it was from lack of effort----
    Mr. Capuano. I respect that. But the bottom line is I don't 
know any other way to enforce it amongst bad actors. Good 
actors don't need an enforcement, bad actors do, which is why 
fines are in place. My presumption is you have contracts with 
suppliers that give them fines if they don't meet their 
requirements. We have to have the same thing if we really think 
that PTC is important.
    By the way, I also fully agree that we should--the Federal 
Government should be participating in paying for this. But we 
are having that argument. You know the arguments we are having 
here. I am with you, but I need 217 other Members to agree with 
that. In the meantime, we can't do anything.
    So I think that it is pretty clear to me that we have to do 
something, but to pretend that we do nothing or to pretend that 
somehow goodness will simply overcome the lack of goodness is 
ridiculous and unenforceable. We need to come up with a 
reasonable timeframe. We need to allow Ms. Feinberg to enforce 
the law, whatever it might be. I don't expect you to break the 
law. I also don't want to fine anybody. So we have to act.
    And we can do it all day long, we can play games, we can 
dance around, we can point fingers, we can show what happened 5 
years ago, 7 years ago, 10 years ago. But since 1969, according 
to the NTSB, according to their own figures, preventable 
accidents have killed 296 people and it injured 6,732. And I 
don't know how much money has been lost because no one has put 
that number together.
    If the cap, the $200 million cap, which, by the way, would 
have cost Metrolink more if it wasn't for the cap, it is hard 
to tell, but it seems to me just rough numbers, it looks like 
the cap probably would have cost--even with the cap, it would 
have been about $20 billion that these accidents would have 
cost.
    This is a doable action, and it is an action that pays for 
itself as proof positive by Metrolink. Help us work with you to 
get it done.
    And by the way, Mr. Mathias, earlier you said you had 8,500 
poles agreed to, but that doesn't count the 11,000 that you did 
previously. It is my understanding you are closer to 20,000 
poles across the country that have been approved. Now, that 
20,000 is about out of 30,000, 35,000 that they will need. So 
we have already got two-thirds of the locations approved and 
ready to go. Is that right?
    Mr. Mathias. Correct.
    Mr. Capuano. Thank you.
    And thank you, Mr. Chairman, for your indulgence.
    Mr. Denham. Thank you, Mr. Capuano.
    Mr. Barletta.
    Mr. Barletta. Thank you, Mr. Chairman.
    Safety is my first priority, there is no question, and 
Positive Train Control is a necessary tool to improve safety. 
But the fact of the matter is that most railroads will not have 
the technology installed by the December 31, 2015, deadline. 
Today I am wondering what happens on January 1, 2016, if the 
deadline remains.
    Mr. Lonegro, today Ms. Feinberg again committed to hold the 
railroads accountable for not meeting the PTC deadline, 
including potential fines and restrictions of service. If the 
deadline is not extended, what actions will the railroads 
likely take? I want to know what is going to happen on January 
1.
    Mr. Lonegro. Well, sir, there is one way to be compliant 
with the deadline, and that is not to move TIH/PIH commodities 
or passengers, which is an untenable situation if you are a 
passenger agency or a TIH/PIH shipper. So the railroads right 
now are in a very difficult place with a deadline that can only 
be congressionally moved.
    So we again have a lot of folks that are evaluating how we 
look at the common carrier obligation, how we look at the PTC 
mandate to, in essence, figure out is there a way to navigate 
through breaking the law on one hand or breaking the law on the 
other hand.
    And we have a very similar situation with Amtrak and the 
commuter agencies where we are required to move the passengers 
or allow them to move their passengers over our lines. And 
again, we have a PTC mandate and we have a passenger 
requirement, and I hate to say which--we are being backed into 
a corner in terms of which law should we violate. And it may be 
that the path forward really does involve cessation of service.
    But we are all looking at that. We are all evaluating. You 
heard a Member earlier talk about increased tort liability. We 
certainly worry about that as well.
    So it is an untenable situation, as I mentioned in my 
opening statement.
    Mr. Barletta. Mr. Orseno, in your testimony you mention 
concerns within the APTA Rail Conference about the ability of 
commuter rail to operate past the PTC deadline as it relates to 
liability and coverage. Can you further describe what liability 
and coverage issues would prevent commuter rail that doesn't 
meet the PTC deadline from operating?
    Mr. Orseno. Well, when we were at the conference a question 
was raised on whether we can operate or individual agencies can 
operate past the deadline because you would be operating 
outside the confines of the law and there may be restrictions 
in some of the liability coverages. And all the commuter 
railroads are now going back with their risk and legal teams to 
take a look and see if that is the case.
    Mr. Barletta. You have already said that Metra won't make 
the December 31, 2015, deadline, and in Pennsylvania, SEPTA 
will not make the deadline either. If the worst-case scenario 
occurs and commuter rail does not receive any flexibility on 
the PTC deadline, how would commuters who rely on Metra or 
other commuter rail like SEPTA be impacted by operation 
changes?
    Mr. Orseno. That would depend on to the degree of what 
actually happens. If railroads were forced to close down 
because of liability reasons and insurance reasons, for us 
alone that would put 300,000 passengers on the roads already 
that are congested, and that wouldn't be a good solution.
    Mr. Barletta. In Pennsylvania, SEPTA is furthest behind in 
the on board vehicle/locomotive system installations. You also 
cited in your testimony that one of the biggest PTC challenges 
is onboard software, and that final production release date is 
not yet known. Can you tell us why this has been such a 
challenge?
    Mr. Orseno. I don't have that technical knowledge, but I 
believe Mr. Lonegro does.
    Mr. Lonegro. PTC, in the very beginning, was somewhat 
theoretical in the way that the regulation was published in 
terms of what it had to accomplish and how it had to accomplish 
that. And so we took a system that was much smaller, much less 
complicated, and much less mature, and through the period of 
the last 7 years are really working to the point where it can 
comply with all of the regulations and the functionality that 
has been required.
    I would tell you that from a software perspective, we are 
getting closer, meaning, arguably, the end of the year we could 
have a piece of software that is very, very close. At the same 
time, we have committed to not implement software that has any 
critical defects or severe defects, but yet we are willing to 
deploy software with medium or minor defects, right.
    So we are not really trying to get to perfect necessarily, 
but we are making sure that it can provide all the 
functionality and doesn't create a situation where a safety 
problem is introduced.
    Just in the last month or so, we have found a safety-
critical defect in the onboard software which has to be 
corrected, has to be retested, has to be taken back to the 
field, and the same holds true for the back-office software. So 
these are people in the supplier community, this is their 
business, right, this is what they do for a living, and if they 
are unable to tackle the technical challenge that has been put 
in front of all of us, that gives you some understanding of the 
complexity of the challenge that we have because that is just 
one piece of the puzzle.
    Mr. Barletta. Thank you.
    Thank you, Mr. Chairman.
    Mr. Denham. Thank you. And I would like to recognize Ms. 
Brown. If you will indulge me just for a second, though, I am 
going to turn it over to Mr. Rokita, but I did want to enter 
one piece of information for the record, without objection. 
This was prepared in association with the California High-Speed 
Rail Association. This is their June 2009 request for funding.
    [The ``San Francisco/Silicon Valley Corridor Investment 
Strategy for High-Speed Rail'' can be found on page 108.]
    Mr. Denham. On their request, they request $230 million 
from the ARRA Investment Strategy from those funds that have 
been allocated to California, $230 million. Here is a map here 
where it shows exactly where those improvements would be.
    Can you zoom that in? Move it up.
    This corridor here, Positive Train Control, $230 million. 
The California High-Speed Rail Authority thinks that it can do 
it. They have requested it. This is in California. We want to 
have the safety improvements there. Here is a good funding 
source to do that.
    Ms. Feinberg. Mr. Chairman, understood. My staff passed me 
a note during the hearing that states that ARRA high-speed rail 
funding has been at $328 million. So we will follow up with you 
and look at those two numbers together and respond.
    Mr. Denham. Thank you. And I will have a staff member bring 
that down just for your record as we continue this ongoing 
exchange.
    And with that, I would like to recognize Ms. Brown for our 
second round of questioning.
    Ms. Brown. Thank you, Mr. Chairman, but would you indulge 
me for a minute, because when I was out of the room, Mr. Mica 
said that Amtrak had not implemented Positive Train Control 
from New Haven to Boston. Not only did they implement it, it 
was the first in the country, and I want to submit that for the 
record.
    Mr. Denham. Without objection.
    Ms. Brown. Thank you.
    Now, Metrolink, who I visited with several times in 
California, and I just want to mention that you had the support 
of the State, the local recovery money. And funding is the 
issue for all of the commuter lines, and let's don't sit here 
and act like it is not, and a lot of the local resources are 
not available for the other lines.
    With that, I want to go on to Frank, because you and I want 
to say all those great things about CSX, but you are the one 
that is here representing the Class I railroad, and they said 
that there are some positive players and there are some who are 
not. Would you give us an update, because we need an extension. 
The idea that we are going to start fining people, and then 
where is that money going? Against this reduction? I want the 
money to go into the system. So would you tell us who are these 
negative players that they are talking about?
    Mr. Lonegro. Thank you, Member Brown.
    There are no bad actors here. This technology is very 
difficult to implement. The scale proposition that we each have 
is very challenging, as one of the Members mentioned earlier in 
terms of the scale of the CSX deployment. For at least the 
major U.S. Class I's, the scale is about the same, right, we 
all have that major challenge.
    The Canadian railroads have a slightly smaller footprint 
because they don't run as much in the United States and there 
is no PTC mandate in Canada, so their footprint is slightly 
smaller. So at least in the Class I world, there are no bad 
actors. We are all going about this with all----
    Ms. Brown. That is not what I heard, though. And are you 
all working with the commuter lines also?
    Mr. Lonegro. We are. Each of us has a different set of 
commuters that we work with. So on the CSX footprint, we have 
commuters in and around DC, we certainly have commuters in 
Chicago, and then we have a full spectrum of commuters on 
Amtrak that run, in essence, from Baltimore up to Boston.
    So we are in active discussions with them literally all of 
the time. We hosted a summit in Chicago at Mr. Orseno's 
facility where we brought in the Class I's in the committee 
that I chair at the industry level, we brought in all the 
commuters and all the short lines, and did our best to try to 
help educate folks on the state of the technology, some of the 
challenges that we face, so they wouldn't have to face the same 
challenges as they deployed on their railroads.
    We had, I think, a good dialogue, and Mr. Orseno can 
certainly chime in. I think we had a good dialogue. We have 
kept that dialogue up. We have another meeting planned for 
later in this year where we can reengage and reassess where we 
are both individually and collectively.
    Ms. Brown. What is the drop-dead amount of time that you 
need, Frank?
    Mr. Lonegro. As an industry, one of the things that we come 
forward with is the ability to be hardware complete by 2018 and 
completely rolled out by 2020. And again, I want to make sure 
that everybody understands, by the end of 2018, OK, we will 
have as an industry 87 percent of the PTC footprint installed 
and implemented, meaning we are operational with PTC, and that 
is based on current plans, plans that were in place certainly 
before the Amtrak tragedy, and then the remaining 13 percent is 
really what comes in those last 2 years.
    So literally, we are starting to deploy PTC in operational 
mode right now, right, and then it ramps up from here fairly 
linearly, but ramps up from here through the end of 2020.
    Ms. Brown. Ms. Feinberg, how long will it take you all to 
inspect? If they complete it in 2018, you have some work to do. 
How long will it take you to verify the system?
    Ms. Feinberg. Well, they would submit to us a plan, which 
we would then turn around to them. Then they would complete 
implementation, and I think things would move quite quickly. 
The issue there would be that you would be 3 years past the 
deadline at that point.
    Ms. Brown. Yes, we understand. Everybody understands that. 
And we understand that the deadline is not realistic and nobody 
is going to meet it, and we have some concerns about the fines.
    Mr. Mathias, I have a real concern about your spectrum, and 
we have talked a lot about it, even when it is implemented. 
What about the local responders? We need to be able to talk to 
each other; 9/11, we discovered that we couldn't talk to each 
other. And then Katrina, we are still not talking to each 
other, and even though they are implementing something and 
Amtrak is implementing something. And then you have those local 
responders. How come we don't have a dedicated system for 
emergencies for this country?
    Mr. Mathias. Thank you for that question. I think that 
Congress has worked very hard and diligently to create an 
infrastructure for a national interoperable public safety 
communication system, and I think that is being addressed in 
that way, and it is in a separate spectrum band and being 
handled in a separate process. But that is on the way.
    Ms. Brown. Mr. Mathias, failure is not an option. We really 
need to get it done. Thank you.
    Mr. Rokita [presiding]. I thank the gentlelady. The 
gentlelady's time has expired. I will recognize myself for 5 
minutes.
    I appreciate everyone's testimony. Mr. Lonegro, I had a 
couple of questions for you about the two people in a cab 
situation. In our last hearing, NTSB Chairman Hart testified 
that having two-person cabs didn't necessarily improve safety, 
and he was on a panel with several union members and others. I 
wonder what your thoughts are on that kind of statement.
    Mr. Lonegro. We have two people in the cab of our 
locomotives on all our main line trains. We certainly over, I 
would say, the period of years, if not decades in the future, 
we will look for the opportunity to reduce the crew size from 
two to one if the technology supports that and we are able to 
negotiate an appropriate agreement with our labor unions. I 
mean, there is a path forward for that, again, when the 
technology gets to the point where having two people in the cab 
really is no longer necessary.
    Mr. Rokita. Roger.
    Last hearing Ms. Feinberg stated that the FRA is looking at 
having a two-person crew situation as an interim solution along 
with probably some additional backstops as well until PTC is 
implemented, before deadline, after deadline, whenever that is. 
Would you be supportive of that?
    Mr. Lonegro. Well, on the freight side I think it is not 
necessary. We already have it. I think maybe she was referring 
to the commuter side of the house and the Amtrak side of the 
house which generally operates with one person in the cab, 
although they certainly have crewmembers in the train itself. 
But we already have two.
    Mr. Rokita. Same question, this is the last question to 
you, Mr. Orseno.
    Mr. Orseno. We operate our trains with one person in the 
cab and two people in the body of the train that are both rules 
qualified. Two members up in the cab doesn't necessarily mean 
it is a safer situation. There have been many instances where 
there have been accidents when two people have been up in the 
cab. We don't support that initiative.
    Mr. Rokita. Thank you, sir.
    Mr. Kerwin, same question to you.
    Mr. Kerwin. Yeah, we have also evaluated this in the past, 
and we will continue to monitor the recommendations from the 
FRA and NTSB on this issue.
    Mr. Rokita. OK. Thank you.
    And back to you, Mr. Lonegro. You said you currently have 
two people in a cab on all routes that will require PTC by 2016 
or----
    Mr. Lonegro. Correct, all main line routes, yes, sir.
    Mr. Rokita. OK. So CSX having a two-person crew as an 
interim solution until PTC is fully implemented on PTC-required 
routes is logistically doable.
    Mr. Lonegro. It is already being done.
    Mr. Rokita. OK. So then would industry be supportive of 
having two-person crews as an interim solution until PTC is 
fully implemented, thus, theoretically you would be complying 
with the requirements of PTC if you had two people in a cab?
    Mr. Lonegro. Well, there is no requirement for two people 
in the cab today in the way----
    Mr. Rokita. But as an interim solution.
    Mr. Lonegro. Well, we already have it, and any time we 
would want to go from two to one, we would certainly have to 
work with FRA to get approval to do that. So it is just not 
necessary, at least with respect to the freight railroads, 
given where we are and the steps that we would have to go 
through to remove one member of the crew.
    Mr. Rokita. OK. Thank you.
    And the only thing I would add for the record is that in 
addition to any of the other things Ms. Feinberg may or may not 
have been blamed for today, she now has apparently sent Mr. 
Mica to the hospital, which obligates me to have to go visit 
him. Add that to your stack.
    And with that, my questions are done, and I don't see any 
more questions from Members. So on behalf of Chairman Denham, 
let me thank you each for coming again today. We thank all the 
members of the audience for their attention today. We move 
forward. And with that, hearing no other business before the 
committee, this hearing is adjourned.
    [Whereupon, at 12:15 p.m., the subcommittee was adjourned.]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    
   
                                    
</pre></body></html>
